                              NCUA 2012
                     FINANCIAL STATEMENT AUDITS
                                 FOR
              COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                            OPERATING FUND
                      CENTRAL LIQUIDITY FACILITY
                         SHARE INSURANCE FUND




                 For the year ended December 31, 2012

        Audited Financial Statements            Audit Report Number

Community Development Revolving Loan Fund               OIG-13-01
Operating Fund                                          OIG-13-02
Central Liquidity Facility                              OIG-13-03
Share Insurance Fund                                    OIG-13-04


                           February 15, 2013




                          William A. DeSarno
                          Inspector General
                                     EXECUTIVE SUMMARY

PURPOSE AND SCOPE              This report transmits KPMG LLP’s (KPMG) report
                               on its financial statement audit of the National Credit
Union Administration’s (NCUA) financial statements, which includes the
Community Development Revolving Loan Fund, Operating Fund, Central
Liquidity Facility, and Share Insurance Fund as of and for the years ending
December 31, 2012 and 2011. The NCUA prepared financial statements in
accordance with the Office of Management and Budget (OMB) Circular No.
A-136, Financial Reporting Requirements, and subjected them to audit.

                                 Under a contract monitored by the NCUA OIG,
AUDIT REPORTS ON
                                 KPMG, an independent certified public
FINANCIAL STATEMENTS,
                                 accounting firm, performed an audit of the
INTERNAL CONTROL, AND
                                 NCUA’s financial statements as of December
COMPLIANCE AND OTHER
                                 31, 2012. The contract required that the audit
MATTERS
                                 be performed in accordance with generally
accepted government auditing standards issued by the Comptroller General of
the United States; Office of Management and Budget audit guidance, and the
Government Accountability Office/President's Council on Integrity and Efficiency
Financial Audit Manual.

KPMG’s audit report for 2012 includes: (1) an opinion on the financial
statements, (2) conclusions on internal control over financial reporting, and (3) a
section addressing compliance and other matters. In its audit of the NCUA,
KPMG found:

     •    The financial statements were fairly presented, in all material respects, in
          conformity with U.S. generally accepted accounting principles,

     •    There were no material weaknesses in internal controls, 1

     •    There were no significant deficiencies to internal controls. 2

     •    No instances of reportable noncompliance with laws and regulations it
          tested or other matters that are required to be reported under
          Government Auditing Standards or OMB guidance.




1
  A material weakness is defined as a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.
2
  A significant deficiency is defined as a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
OIG EVALUATION           To ensure the quality of the audit work performed, we
OF KPMG’S AUDIT          reviewed KPMG’s approach and planning of the audit,
PERFORMANCE              evaluated the qualifications and independence of the
                         auditors, monitored the progress of the audit at key
points, and reviewed and accepted KPMG’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, opinions on
NCUA’s financial statements or conclusions about the effectiveness of internal
control or conclusions on compliance with laws and regulations. KPMG is
responsible for the attached auditor’s reports dated February 13, 14, and 15,
2013 and the conclusions expressed in the reports. However, our review
disclosed no instances where KPMG did not comply, in all material respects, with
generally accepted government auditing standards.

We would like to extend our thanks to NCUA management and staff involved in
issuing the financial statements within the established milestones. In addition,
we appreciate the professionalism, courtesies, and cooperation extended to
KPMG throughout the audit and our oversight of the audit process.
Report # OIG-13-01
National Credit Union Administration
Community Development
Revolving Loan Fund
Financial Statements as of and for the
Years Ended December 31, 2012 and 2011,
and Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
TABLE OF CONTENTS


                                                     Page

INDEPENDENT AUDITORS’ REPORT                            1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2012 AND 2011:

 Balance Sheets                                         3

 Statements of Operations                               4

 Statements of Changes in Fund Balance                  5

 Statements of Cash Flows                               6

 Notes to Financial Statements                         7-12
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




                                          Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Administration
Community Development Revolving Loan Fund (CDRLF), which comprise the balance sheets as of
December 31, 2012 and 2011, and the related statements of operations, changes in fund balance, and cash
flows for the years then ended, and the related notes to the financial statements.
Management's Responsibilities
Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
(Internal Control Over Financial Reporting) that are free from material misstatement, whether due to fraud
or error.
Auditors’ Responsibilities
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-
04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity's preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity's internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly in all material respects, the financial
position of the National Credit Union Administration Community Development Revolving Loan Fund as
of December 31, 2012 and 2011, and the results of its operations, changes in fund balance, and cash flows
for the years then ended in accordance with U.S. generally accepted accounting principles.

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Other Reporting Responsibilities
Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered the CDRLF’s internal
control as a basis for designing audit procedures that are appropriate in the circumstances for the purpose
of expressing our opinion on the financial statements, but not for the purpose of expressing an opinion on
the effectiveness of the CDRLF’s internal control. Accordingly, we do not express an opinion on the
effectiveness of the CDRLF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses. Given these limitations, during our audit we did not identify any deficiencies in internal
control that we consider to be material weaknesses. However, material weaknesses may exist that have not
been identified.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the CDRLF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts and certain provisions of other laws and regulations specified
in OMB Bulletin No. 07-04. However, providing an opinion on compliance with those provisions was not
an objective of our audit, and accordingly, we do not express such an opinion. The results of our tests
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 07-04.

Purpose of the Other Reporting Responsibilities
The purpose of the communication related to internal control over financial reporting and compliance and
other matters described in the Other Reporting Responsibilities section is solely to describe the scope of
our testing of internal control and compliance and the result of that testing and not to provide an opinion on
the effectiveness of the entity’s internal control or compliance. This communication is an integral part of
an audit performed in accordance with Government Auditing Standards in considering the entity’s internal
control and compliance. Accordingly, this communication is not suitable for any other purpose.




February 13, 2013




                                                  2
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2012 AND 2011

                                                                2012           2011
ASSETS

Cash and Cash Equivalents (Notes 3 and 8)                    $ 12,918,956   $ 14,371,893

Loans Receivable (Notes 5, 7, and 8)                            3,949,022      2,756,164

Interest Receivable (Note 8)                                        3,283          6,772

Total                                                        $ 16,871,261   $ 17,134,829



LIABILITIES AND FUND BALANCE

Liabilities - Accrued Technical Assistance Grants (Note 8)   $ 1,230,923    $ 1,513,828

Fund Balance:

 Fund Capital (Note 4)                                         13,778,866     13,565,689
 Accumulated Earnings                                           1,861,472      2,055,312

        Total Fund Balance                                     15,640,338     15,621,001

Total                                                        $ 16,871,261   $ 17,134,829



See accompanying notes to the financial statements.




                                                      -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011


                                                              2012             2011

SUPPORT AND REVENUES:
 Interest on Cash Equivalents                             $      8,405     $      2,681
 Interest on Loans                                              18,964           41,761
 Appropriation Revenue
   Appropriations Expended (Note 4)                           1,492,872        1,069,588
   Cancelled Technical Assistance Grants (Note 6)              (459,049)               -
       Total Support and Revenues                             1,061,192        1,114,030

EXPENSES:
 Technical Assistance Grants                                  1,744,702        1,153,780
 Cancelled Technical Assistance Grants (Note 6)                (489,802)        (615,339)
 Provision for Loan Losses                                          132               60
       Total Expenses                                         1,255,032          538,501

NET INCOME/(LOSS)                                         $   (193,840)    $    575,529

See accompanying notes to financial statements.




                                                    -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011


                                                               Fund Capital
                                                               For Technical
                                                                Assistance    Total Fund Accumulated Total Fund
                                                   For Loans      Grants       Capital     Earnings     Balance
December 31, 2010                                 $ 13,387,777 $         -   $ 13,387,777 $ 1,479,783 $ 14,867,560

Appropriations Received (Note 4)                               -      1,250,000     1,250,000           -       1,250,000
Appropriations Expended                                        -     (1,069,588)   (1,069,588)          -      (1,069,588)
Appropriations Rescinded                                       -         (2,500)       (2,500)          -          (2,500)
Net Income/(Loss)                                              -              -             -     575,529         575,529

December 31, 2011                                     13,387,777       177,912     13,565,689    2,055,312     15,621,001

Appropriations Received (Note 4)                               -      1,247,000     1,247,000           -       1,247,000
Appropriations Expended                                        -     (1,492,872)   (1,492,872)          -      (1,492,872)
Cancelled Technical Assistance Grants (Note 6)                 -        459,049       459,049           -         459,049
Net Income/(Loss)                                              -              -             -    (193,840)       (193,840)

December 31, 2012                                 $   13,387,777 $     391,089 $ 13,778,866 $    1,861,472 $   15,640,338

See accompanying notes to financial statements.




                                                             -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011


                                                                       2012                2011

CASH FLOWS FROM OPERATING ACTIVITIES:

Net Income/(Loss)                                                  $      (193,840)    $          575,529
Adjustments to Reconcile Net Income/(Loss) to Net Cash Used in
  Operating Activities:
  Provision for Loan Loss                                                       132                   60
  Appropriations Expended                                                (1,492,872)         (1,069,588)
  Cancelled Technical Assistance Grants                                     459,049                 -
  Changes in Assets and Liabilities:
    Decrease in Interest Receivable                                           3,489               6,212
    Decrease in Accrued Technical Assistance Grants                        (282,905)           (680,266)
       Net Cash Used in Operating Activities                             (1,506,947)         (1,168,053)



CASH FLOWS FROM INVESTING ACTIVITIES:
  Loan Principal Repayments                                               1,807,009           2,726,390
  Loan Disbursements                                                     (2,999,999)                -
      Net Cash Provided by/(Used In) Investing Activities                (1,192,990)          2,726,390



CASH FLOWS FROM FINANCING ACTIVITIES:
  Appropriations Received 2012/2013                                       1,247,000                 -
  Appropriations Received 2011/2012                                             -             1,250,000
  Appropriations Rescinded                                                      -                (2,500)
      Net Cash Provided by Financing Activities                           1,247,000           1,247,500

NET INCREASE/(DECREASE) IN CASH AND CASH EQUIVALENTS                     (1,452,937)          2,805,837

CASH AND CASH EQUIVALENTS — Beginning of Year                            14,371,893          11,566,056

CASH AND CASH EQUIVALENTS — End of Year                            $     12,918,956    $     14,371,893

See accompanying notes to the financial statements.




                                                             -6-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011


1. NATURE OF ORGANIZATION

The Community Development Revolving Loan Fund (CDRLF) for credit unions was established
by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic
development in low-income communities. The National Credit Union Administration (NCUA)
and the Community Services Association (CSA) jointly adopted Part 705 of NCUA Rules and
Regulations, governing administration of CDRLF, on February 28, 1980.

Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the
Department of Health and Human Services (HHS). From 1983 through 1990, CDRLF was
dormant.

The Community Development Credit Union Transfer Act (Public Law 99-609, November 6,
1986) transferred CDRLF administration back to NCUA. The NCUA Board adopted
amendments to Part 705 of NCUA Rules and Regulations on September 16, 1987, and began
making loans/deposits to participating credit unions in 1990.

The purpose of CDRLF is to stimulate economic activities in the communities served by
low-income credit unions, which is expected to result in increased income, ownership, and
employment opportunities for low-income residents, and other economic growth. The policy of
NCUA is to revolve the loans to qualifying credit unions as often as practical in order to gain
maximum impact on as many participating credit unions as possible.

2. SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

Basis of Presentation – CDRLF has historically prepared its financial statements in accordance
with accounting principles generally accepted in the United States of America (GAAP), based on
standards issued by the Financial Accounting Standards Board (FASB), the private sector
standards setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
standards setting body for the establishment of GAAP with respect to the financial statements of
Federal Government entities. FASAB has indicated that financial statements prepared based
upon standards promulgated by FASB may also be regarded as in accordance with GAAP for
Federal entities that have issued financial statements based upon FASB standards in the past.

Basis of Accounting – CDRLF reports its financial statements on the accrual basis of accounting
in conformity with GAAP.

Cash Equivalents – The Federal Credit Union Act permits CDRLF to make investments in
United States Government Treasury securities. All investments in 2012 and 2011 were cash




                                              -7-
equivalents and were stated at cost, which approximates fair value. Cash equivalents are highly
liquid investments with original maturities of three months or less.

Loans Receivable and Allowance for Loan Losses – Prior to fiscal year 2012, outstanding
principal was limited to $300,000 per credit union, the maximum loan term was five (5) years,
and interest and principal were paid on a semi-annual basis beginning six months and one year,
respectively, after the initial loan disbursement. Per NCUA policy, loans issued after May 22,
2012 carry a fixed rate of 0.4%, and the applicable regulation does not provide a maximum limit
on loan applications. Interest is to be paid on a semiannual basis beginning six months after the
initial distribution of the loan and every six months thereafter until maturity. Principal is to be
repaid on the maturity date of the loan. The maximum term of each loan is five years.

Loans are initially recognized at their disbursed amount, net of the allowance for loan losses, if
any.

A provision for loans considered to be uncollectible is charged to the income statement when
such losses are probable and reasonably estimable. Provisions for significant uncollectible
amounts are credited to an allowance for loan losses, while de minimis amounts are directly
charged-off. Management continually evaluates the adequacy of the allowance for loan losses
based upon prevailing circumstances and an assessment of collectability risk of the total loan
portfolio as well as historical loss experience. On the basis of this analysis, no allowance for loan
losses was necessary as of December 31, 2012 and 2011. Accrual of interest is discontinued on
nonperforming loans when management believes collectability is doubtful.

Accrued Technical Assistance Grants – CDRLF issues technical assistance grants to low-
income credit unions. CDRLF utilizes multi-year appropriated funds and income generated from
the revolving fund to issue technical assistance grants. Grant income and expense is recognized
when CDRLF makes a formal commitment to the recipient credit union for technical assistance
grants. CDRLF performs a review of long term unspent technical assistance grant awards (e.g.
outstanding awards past the period of eligibility) and then formal steps are taken to cancel
identified technical assistance grants. The cancelled technical assistance grant funds are credited
back to the original appropriated fund from which they are awarded.

Related Party Transactions – NCUA provides certain general and administrative support to
CDRLF, including office space, salaries, and certain supplies. The value of these contributed
services is not charged to CDRLF.

Revenue Recognition – Appropriation revenue is recognized as the related technical assistance
grant expense is recognized. Total appropriation revenues will differ from total technical
assistance grant expenses because not all technical assistance grants are funded by
appropriations. Interest income on cash and cash equivalents and on loans is recognized when
earned.

Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, as well as the disclosure of contingent assets and liabilities at the date of the financial




                                                  -8-
statements, and the reported amounts of revenues and expenses during the reporting period.
Actual results could differ from management’s estimates.

Income Taxes – CDRLF is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines, and penalties and other sources are recorded when it is probable
that a liability has been incurred and the amount can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

3. CASH AND CASH EQUIVALENTS

CDRLF’s cash and cash equivalents as of December 31, 2012 and 2011 are as follows:

                                                            2012                2011
                  Deposit with U.S. Treasury              $ 2,118,956        $ 4,371,893
                  U.S. Treasury Overnight Securities        10,800,000         10,000,000
                                                          $ 12,918,956       $ 14,371,893


4. GOVERNMENT REGULATIONS

CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending
and technical assistance grants, is limited to the amount appropriated by Congress to date for
CDRLF, which includes accumulated earnings. Federally-chartered and state-chartered credit
unions with a low-income designation are eligible to participate in CDRLF’s loan and technical
assistance grant program.

Since inception, Congress has appropriated $13,387,777 for the revolving loan component of the
program, and this component is governed by Part 705 of NCUA Rules and Regulations.

During the year ended December 31, 2012, CDRLF received appropriations for technical
assistance grants in the amount of $1,247,000 for Federal fiscal years (FY) 2012-2013. Of this
amount, $1,210,016 was expended for the year ended December 31, 2012. An additional
$282,856 was expended from the FY 2011-2012 appropriation.

During the year ended December 31, 2011, CDRLF received appropriations for technical
assistance grants in the amount of $1,250,000 for Federal FY 2011-2012, of which $2,500 was
rescinded. At year ended December 31, 2011, $1,069,588 was expended from the FY 2011-2012
appropriation.

These appropriations were designated to be used for technical assistance grants, and no amounts
were designated to be used as revolving loans. As of December 31, 2012 no appropriated funds
were remitted to the U.S. Treasury for cancelled appropriations.




                                               -9-
5. LOANS RECEIVABLE

Receivables consisted of the following as of December 31, 2012 and 2011.

                                                                      2012               2011
Balance as of beginning of year                                   $    2,756,164    $    5,482,614
Add: Loans disbursed                                                   2,999,999                 -
Less: Loan repayments                                                 (1,807,009)       (2,726,390)
Less: Bad Debt Expense                                                      (132)              (60)

   Loans receivable as of end of year                             $   3,949,022     $   2,756,164

Changes in the allowance for loan losses consisted of
the following:

Balance as of beginning of year                                 $              -    $            -
Decrease (increase) in allowance                                               -                 -

   Accounts for loan losses as of end of year                   $              -    $            -

Loans receivable, net as of end of year                           $   3,949,022     $   2,756,164

Loans outstanding as of December 31, 2012, are scheduled to be repaid during the following
subsequent years:

                                                         2012

                   2013                             $ 460,791
                   2014                                 460,791
                   2015                                  27,441
                   2016                                       -
                   2017                               2,999,999
                   Loans Outstanding                  3,949,022
                   Allowance for Loan Losses                  -
                   Total Loans Receivable           $ 3,949,022


CDRLF has the intent and ability to hold its loans to maturity. CDRLF anticipates realizing the
carrying amount in full.




                                                - 10 -
6. CANCELLED TECHNICAL ASSISTANCE GRANTS

During 2012, CDRLF cancelled $30,753 of technical assistance grants awarded from the
revolving fund and $459,049 of technical assistance grants awarded from multiyear funds.
These amounts were recognized as Cancelled Technical Assistance Grants under expenses.

Cancelled technical assistance grants from the revolving fund are credited back to accumulated
earnings. Cancelled technical assistance grants from previously expended multiyear funds are
credited back to the original appropriated fund from which they are awarded. As a result, the
$459,049 was also recognized under revenue, resulting in no change to net income.

For the year ended December 31, 2011, CDRLF cancelled $615,339 from the revolving fund.

Cancelled technical assistances grants awarded from appropriations from FY 2008 through 2011
will be remitted to the U.S. Treasury upon cancellation of the related appropriation.

7. CONCENTRATION OF CREDIT RISK

As discussed in Note 1, CDRLF provides loans to credit unions that serve predominantly
low-income communities.

NCUA Rules and Regulations Section 705.5 permit the classification of the loan in the
participating credit union’s accounting records as a non-member deposit. As a non-member
deposit, $250,000 per credit union is insured by the National Credit Union Share Insurance Fund
(NCUSIF). The aggregate amount of uninsured loans totaled $832,323 and $0 as of December
31, 2012 and 2011, respectively.

8. ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

The fair value of an instrument is the amount that would be received to sell an asset or would be
paid to transfer a liability in an orderly transaction between market participants by the
measurement date. The following methods and assumptions were used to estimate the fair value
of each class of financial instruments:

Loans Receivable – Fair value is estimated using an income approach by separately discounting
each individual loan’s projected future cash flow. CDRLF believes that the discount rate reflects
the pricing and is commensurate with the risk of the loans to CDRLF. Loans are valued annually
on December 31, 2012.

Other – The carrying amounts for cash and cash equivalents, interest receivable, and accrued
technical assistance grants approximate fair value.




                                              - 11 -
The following table presents the carrying value amounts and established fair values of CDRLF’s
financial instruments as of December 31, 2012 and 2011.

                                                           2012                                          2011
                                       Carrying Amount       Estimated Fair Value    Carrying Amount       Estimated Fair Value

Assets:
 Cash and cash equivalents             $      12,918,956     $          12,919,000   $      14,371,893     $          14,372,000
 Loans receivable                              3,949,022                 3,954,000           2,756,164                 2,777,000
 Interest receivable                               3,283                     3,000               6,772                     7,000

Liabilities:
 Accrued technical assistance grants           1,230,923                 1,231,000           1,513,828                 1,514,000




9. RELATED PARTY TRANSACTIONS

NCUA, in supporting the activities of CDRLF, provides for the administration of CDRLF. The
administrative costs paid by NCUA’s Operating Fund (OF) are directly related to the percentage
of employee’s time spent on CDRLF. The administrative cost calculation takes into account the
employees’ salary, benefits, travel, training, and certain “other” costs (e.g., telephone, supplies,
online applications, printing, and postage).

For the years ending December 31, 2012 and 2011, NCUA, through the OF, paid the following
overhead expenses on behalf of CDRLF:

                                                  2012                2011

                              Employee          $ 346,613            $ 330,651
                              Other                89,421               19,989

                              Total             $ 436,034            $ 350,640


10. SUBSEQUENT EVENTS

Subsequent events have been evaluated through February 13, 2013, which is the date the
financial statements were available to be issued, and management determined that there are no
other items to disclose.




                                                            - 12 -
Report # OIG-13-02
National Credit Union Administration
Operating Fund
Financial Statements as of and for the Years Ended
December 31, 2012 and 2011, and
Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS

                                                                Page

INDEPENDENT AUDITORS' REPORT

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
 DECEMBER 31, 2012 AND 2011

 Balance Sheets                                                  3

 Statements of Revenues, Expenses and Changes in Fund Balance    4

 Statements of Cash Flows                                        5

 Notes to Financial Statements                                  6-18
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




                                          Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:


Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Administration
Operating Fund (OF), which comprise the balance sheets as of December 31, 2012 and 2011, and the
related statements of revenues, expenses and changes in fund balance, and cash flows for the years then
ended, and the related notes to the financial statements.
Management's Responsibilities
OF management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
(Internal Control Over Financial Reporting) that are free from material misstatement, whether due to fraud
or error.
Auditors’ Responsibilities
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-
04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity's preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity's internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly in all material respects, the financial
position of the National Credit Union Administration Operating Fund as of December 31, 2012 and 2011,
and the results of its operations, changes in fund balance, and cash flows for the years then ended in
accordance with U.S. generally accepted accounting principles.
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Other Reporting Responsibilities
Internal Control Over Financial Reporting
In planning and performing our audit of the financial statements, we considered OF’s internal control as a
basis for designing audit procedures that are appropriate in the circumstances for the purpose of expressing
our opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the OF’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the OF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses. Given these limitations, during our audit we did not identify any deficiencies in internal
control that we consider to be material weaknesses. However, material weaknesses may exist that have not
been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the OF’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 07-04.
Purpose of the Other Reporting Responsibilities
The purpose of the communication related to internal control over financial reporting and compliance and
other matters described in the Other Reporting Responsibilities section is solely to describe the scope of
our testing of internal control and compliance and the result of that testing and not to provide an opinion on
the effectiveness of the entity’s internal control or compliance. This communication is an integral part of
an audit performed in accordance with Government Auditing Standards in considering the entity’s internal
control and compliance. Accordingly, this communication is not suitable for any other purpose.



February 14, 2013




                                                      2
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2012 AND 2011
(Dollars in thousands)

                                                                            2012      2011
ASSETS:

CASH AND CASH EQUIVALENTS (Note 3)                                          $36,521   $36,982

DUE FROM NATIONAL CREDIT UNION SHARE INSURANCE
 FUND (Note 7)                                                                2,040     1,182

EMPLOYEE ADVANCES                                                               25        43

OTHER ACCOUNTS RECEIVABLE, Net (Note 7)                                        211       885

PREPAID EXPENSES AND OTHER ASSETS                                             1,055     1,015

ASSETS HELD FOR SALE (Note 6)                                                  854       397

FIXED ASSETS — Net of accumulated depreciation of $27,208 and $25,231
  as of December 31, 2012 and December 31, 2011, respectively (Note 4)       31,464    31,760

INTANGIBLE ASSETS — Net of accumulated amortization of $10,772 and $8,333
  as of December 31, 2012 and December 31, 2011, respectively (Note 5)        5,232     7,367

TOTAL                                                                       $77,402   $79,631


LIABILITIES AND FUND BALANCE:

LIABILITIES:
 Accounts payable and accrued other liabilities                              $4,604    $7,074
 Obligations under capital leases (Note 8)                                       78        58
 Accrued wages and benefits                                                  10,178     9,295
 Accrued annual leave                                                        13,832    12,699
 Accrued employee travel                                                        695       628
 Notes payable to National Credit Union Share Insurance Fund (Note 7)        14,415    15,756

       Total liabilities                                                     43,802    45,510

COMMITMENTS AND CONTINGENCIES (Notes 7, 8, 11 & 12)

FUND BALANCE                                                                 33,600    34,121


TOTAL                                                                       $77,402   $79,631

See accompanying notes to financial statements.




                                                         -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011
(Dollars in thousands)

                                                           2012        2011

 REVENUES:
  Operating fees                                         $ 88,798    $ 86,197
  Interest                                                     47          18
  Other                                                     1,280       1,200

       Total revenues                                      90,125      87,415

 EXPENSES, NET (Note 7):
  Employee wages and benefits                              66,509      62,194
  Travel                                                    9,946       9,809
  Rent, communications, and utilities                       1,949       1,936
  Contracted services                                       7,123       6,326
  Depreciation and amortization                             6,289       4,695
  Administrative                                           (1,170)      1,242

       Total expenses                                      90,646      86,202

 EXCESS OF REVENUES (UNDER) / OVER
 EXPENSES                                                    (521)      1,213

 FUND BALANCE—Beginning of year                            34,121      32,908

 FUND BALANCE—End of year                                $ 33,600    $ 34,121

 See accompanying notes to financial statements.




                                                   -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011
(Dollars in thousands)

                                                                                        2012          2011
CASH FLOWS FROM OPERATING ACTIVITIES:
Excess of revenues (under) / over expenses                                          $    (521)    $    1,213
Adjustments to reconcile excess of revenues over expenses to net cash provided by
operating activities:
  Depreciation and amortization                                                          6,289         4,695
  Provision for loss on disposal of employee residences held for sale                      186           305
  Loss on fixed asset and intangible asset retirements                                     107             2
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                                  (858)         1,675
    Employee advances                                                                      18              7
    Other accounts receivable, net                                                        674           (536)
    Prepaid expenses and other assets                                                     (40)           356
  (Decrease) increase in liabilities:
    Accounts payable                                                                    (2,470)        2,031
    Accrued wages and benefits                                                             883           714
   Accrued annual leave                                                                  1,133         1,298
   Accrued employee travel                                                                  67            96

      Net cash provided by operating activities                                          5,468        11,856

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets and intangible assets                                        (3,950)       (6,146)
 Proceeds from insurance on fixed assets                                                    25             -
 Purchases of employee residences held for sale                                         (1,301)       (1,197)
 Proceeds from sale of employee residences held for sale                                   658         1,192
      Net cash used in investing activities                                             (4,568)       (6,151)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable to National Credit Union Share Insurance Fund              (1,341)       (1,341)
 Principal payments under capital lease obligations                                        (20)          (27)

      Net cash used in financing activities                                             (1,361)       (1,368)

NET (DECREASE) / INCREASE IN CASH AND CASH EQUIVALENTS                                   (461)         4,337
CASH AND CASH EQUIVALENTS—Beginning of year                                             36,982        32,645

CASH AND CASH EQUIVALENTS—End of year                                               $ 36,521      $ 36,982

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES -
 Acquisition of equipment under capital lease                                       $      40     $      61

CASH PAYMENTS FOR INTEREST                                                          $     290     $     344
See accompanying notes to financial statements.




                                                           -5-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011

1.      ORGANIZATION AND PURPOSE

The National Credit Union Administration Operating Fund (the “Fund”) was created by the
Federal Credit Union Act of 1934. The Fund was established as a revolving fund in the United
States Treasury under the management of the National Credit Union Administration (NCUA)
Board for the purpose of providing administration and service to the Federal credit union system.

A significant majority of the Fund’s revenue is comprised of operating fees paid by Federal
credit unions. Each Federal credit union is required to pay this fee based on its prior year asset
balances and rates set by the NCUA Board.

2.      SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation – The Fund has historically prepared its financial statements in
accordance with accounting principles generally accepted in the United States of America
(GAAP), based on standards issued by the Financial Accounting Standards Board (FASB), the
private sector standards setting body. The Federal Accounting Standards Advisory Board
(FASAB) is the standards setting body for the establishment of GAAP with respect to the
financial statements of Federal Government entities. FASAB has indicated that financial
statements prepared based upon standards promulgated by FASB may also be regarded as in
accordance with GAAP for Federal entities that have issued financial statements based upon
FASB standards in the past.

Basis of Accounting – The Fund maintains its accounting records in accordance with the accrual
basis of accounting. As such, the Fund recognizes income when earned and expenses when
incurred. In addition, the Fund records investment transactions when they are executed and
recognizes interest on investments when it is earned.

Related Parties – The Fund exists within NCUA and is one of five funds managed by the
NCUA Board. The other funds managed by the Board, deemed related parties, are:

     a) The National Credit Union Share Insurance Fund (NCUSIF)
     b) The National Credit Union Administration Temporary Corporate Credit Union
        Stabilization Fund (TCCUSF)
     c) The National Credit Union Administration Central Liquidity Facility (CLF)
     d) The National Credit Union Administration Community Development Revolving Loan
        Fund (CDRLF).




                                                -6-
The Fund supports these related parties by providing office space, information technology
services, and supplies, as well as paying employees’ salaries and benefits. Certain types of
support are reimbursed to the Fund by NCUSIF, TCCUSF and CLF as described in Note 7.

Cash Equivalents – Cash equivalents are highly liquid investments with original maturities of
three months or less. The Federal Credit Union Act permits the Fund to invest in United States
Government securities or securities with both principal and interest guaranteed by the United
States Government. All investments in 2012 and 2011 were cash equivalents and are stated at
cost, which approximates fair value.

Fixed and Intangible Assets – Buildings, furniture, equipment, computer software, and
leasehold improvements are recorded at cost. Computer software includes the cost of labor
incurred by both external and internal programmers, and other personnel in the development of
the software. Capital leases are recorded at the present value of the future minimum lease
payments. Depreciation and amortization are computed by the straight-line method over the
estimated useful lives of buildings, furniture, equipment, and computer software, and the shorter
of either the estimated useful life or lease term for leasehold improvements and capital leases.
Estimated useful lives are 40 years for the building and two to ten years for the furniture,
equipment, computer software, and leasehold improvements.

Long-lived Assets/Impairments – Fixed and intangible assets, subject to amortization, are
reviewed for impairment whenever events or changes in circumstances indicate that the carrying
amount of an asset may not be recoverable. If the carrying value of the long-lived asset or asset
group is not recoverable, an impairment is recognized to the extent that the carrying value
exceeds its fair value. Fair value is determined through various valuation techniques, including
discounted cash flow models, quoted market values, and third party independent appraisals, as
considered necessary.

For impairments, the Fund’s policy is to identify assets that are no longer in service, obsolete, or
need to be written down, and perform an impairment analysis based on FASB Accounting
Standards Codification (ASC) 360-10-35, Property, Plant, and Equipment, requirements.
Subsequent adjustment to individual asset values are made to correspond with any identified
changes in useful lives.

Assets Held for Sale – The Fund holds certain real estate held for sale. Such held for sale assets
are ready for immediate sale in their present condition. Real estate held for sale is recorded at
the fair value less cost to sell. If an asset’s fair value less cost to sell—based on a review of
available financial information including but not limited to appraisals, markets analyses, etc. —
is less than its carrying amount, the carrying value of the asset is adjusted to its fair value less
costs to sell.

Gains on disposition of real estate are recognized upon sale of the underlying asset. The Fund
evaluates each real estate transaction to determine if it qualifies for gain recognition under the
full accrual method. If the transaction does not meet the criteria for the full accrual method, the
appropriate deferral method is used.




                                                -7-
Accounts Receivable – Receivables include amounts due from the NCUSIF, employee
advances, and other accounts receivable. In 2011, amounts also include a non-recurring rent
incentive associated with an office lease in Alexandria, Virginia.

As of December 31, 2012 and 2011, the Fund’s Other Accounts Receivable includes an
allowance in the amount of $76,000 and $0, respectively.

Accounts Payable and Accrued Other Liabilities – The Fund incurs administrative expenses
and liabilities for programs pertaining to related parties that are controlled by the NCUA Board.
Accruals are made as expenses are incurred. Accrued other liabilities include contingent
liabilities, as described in Note 11.

Accrued Benefits – The Fund incurs expenses for retirement plans, employment taxes, workers
compensation, transportation subsidies, and other benefits mandated by law. Corresponding
liabilities recorded contain both short-term and long-term liabilities, including liabilities under
the Federal Employees’ Compensation Act (FECA). This act provides income and medical cost
protection to covered Federal civilian employees injured on the job, employees who have
incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease.

Operating Fees – Each federally chartered credit union is assessed an annual fee based on their
assets as of the preceding 31st day of December. The fee is designed to cover the costs of
providing administration and service to the Federal credit union system. The Fund recognizes
this operating fee revenue ratably over the calendar year.

Revenue Recognition – Interest revenue and other revenue relating to Freedom of Information
Act (FOIA) fees, sales of publications, parking income, and rental income is recognized when
earned.

Income Taxes – The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Leases – Operating leases are entered into for the acquisition of office space and equipment as
part of administering NCUA’s program. The cost of operating leases is recognized on the
straight-line method over the life of the lease and includes, if applicable, any reductions resulting
from incentives such as rent holidays. The same method is used to recognize income from
operating leases. Certain office space for which NCUA is a lessee is subject to escalations in
rent, as described in Note 8.

Fair Value of Financial Instruments – The following method and assumption was used in
estimating the fair value disclosures for financial instruments:

Cash and cash equivalents, receivables from related parties, employee advances, other accounts
receivable (net), accounts and notes payable to NCUSIF, and other accounts payable are
recorded at book values, which approximate their respective fair values.




                                                -8-
Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, disclosure of contingent liabilities at the date of the financial statements, and the
reported amounts of revenues and expenses incurred during the reporting period. Significant
estimates include the determination of the FECA liability, certain intangible asset values, and if
there is any determination of a long-lived asset impairment, the related measurement of the
impairment charges.

Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines and penalties, and other sources are recorded when it is probable
that a liability has been incurred and the amount can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

Advertising Costs – Advertising costs, per FASB ASC 720-35-50, Other Expenses - Advertising
Costs, consist primarily of radio and Internet advertisements. Advertising costs are expensed as
incurred. The Fund enters into certain contracts for the purpose of advertising. In 2012 and
2011, advertising expenses amounted to approximately $0 and $248,000, respectively.

3.      CASH AND CASH EQUIVALENTS

The Fund’s cash and cash equivalents as of December 31, 2012 and 2011 are as follows (in
thousands):

                                                                           2012            2011

     Deposit with U.S. Treasury                                        $      435      $      240
     U.S. Treasury Overnight Investments                                   36,086          36,742

     Total                                                             $ 36,521        $ 36,982

As a revolving fund within the U.S. Treasury, the Operating Fund does not hold any cash or cash
equivalents outside of Treasury.




                                                -9-
4.       FIXED ASSETS

Fixed assets, including furniture and equipment, are comprised of the following as of December
31, 2012 and 2011 (in thousands):

                                                                             2012             2011

Office building and land                                              $     47,899      $    46,336
Furniture and equipment                                                     10,265            9,394
Leasehold improvements                                                         406              376
Equipment under capital leases                                                 102               99

 Total                                                                      58,672           56,205

Less accumulated depreciation                                              (27,208)         (25,231)
Assets under construction                                                      -                786

Fixed assets — net                                                    $     31,464      $    31,760


Depreciation expense for the years ended December 31, 2012 and 2011 totaled $2,427,000 and
$2,407,000, respectively.

In 2011, assets under construction primarily represented costs incurred related to building
improvements to the King Street NCUA headquarters office space. Upon completion in 2012,
all costs were fully capitalized and transferred to “Office building and land”.

5.       INTANGIBLE ASSETS

Intangible assets are comprised of the following as of December 31, 2012 and 2011 (in
thousands).

                                                                          2012              2011

Internal-use software                                             $        15,823     $      13,187
Less accumulated amortization                                             (10,772)           (8,333)

Total                                                                       5,051             4,854

Internal-use software-in development                                         181              2,513

Intangible assets — net                                           $         5,232     $       7,367




                                             - 10 -
Internal-use software is computer software that is either acquired externally or developed
internally. Amortization expense for the years ended December 31, 2012 and 2011 totaled
$3,862,000 and $2,288,000, respectively.

Internal-use software that is in development represents costs incurred from the customization of
software purchased from external vendors for internal use as well as the cost of software that is
developed in-house.

6.     ASSETS HELD FOR SALE

Real estate available for sale purchased by the Fund is from employees enrolled in the agency’s
home purchase program who are unable to sell their homes in a specified time period. It is the
agency’s intent to dispose of these properties as quickly as possible. Sales of homes are
generally expected to occur within one year, pending market forces. Currently, the Fund owns
three homes. Ongoing costs to maintain properties are expensed as incurred. The balance of real
estate available for sale as of December 31, 2012 and 2011 was $854,000 and $397,000,
respectively, net of impairment charges and costs to sell of $120,000 and $133,000 as of
December 31, 2012 and 2011, respectively.

7.     RELATED PARTY TRANSACTIONS

(a) Transactions with NCUSIF

Certain administrative services are provided by the Fund to NCUSIF. The Fund charges
NCUSIF for these services based upon an annual allocation factor approved by the NCUA Board
and derived from a study of actual usage. The allocation factor was 100% of the expenses of the
Office of Corporate Credit Unions to the extent that it exceeds the actual operating fees paid by
Federal corporate credit unions, plus 59.3% of all other expenses to NCUSIF for 2012 and 58.9%
for 2011. The cost of the services allocated to NCUSIF, which totaled $137,528,000 and
$129,985,000 for 2012 and 2011, respectively, is reflected as a reduction of the expenses shown
in the accompanying financial statements. These transactions are settled monthly. As of
December 31, 2012 and 2011, amounts due from NCUSIF, under this allocation method, totaled
$2,040,000 and $1,182,000, respectively.

In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a 30-year secured
term note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a
building in 1993. Interest costs incurred were $290,000 and $344,000 for 2012 and 2011,
respectively. The notes payable balances as of December 31, 2012 and 2011 were $14,415,000
and $15,756,000, respectively. The current portion of the long term debt is $1,341,000 as of
December 31, 2012 and 2011, respectively.

The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The
average interest rates during 2012 and 2011 were 1.93% and 2.10%, respectively. The interest
rates as of December 31, 2012 and 2011 were 1.83% and 2.01%, respectively.




                                              - 11 -
The secured term note requires principal repayments as of December 31, 2012 as follows (in
thousands):

     Years Ending                                                                       Secured
     December 31                                                                       Term Note
     2013                                                                              $    1,341
     2014                                                                                   1,341
     2015                                                                                   1,341
     2016                                                                                   1,341
     2017                                                                                   1,341
     Thereafter                                                                             7,710

     Total                                                                             $   14,415


(b) Transactions with CLF

Certain administrative services are provided by the Fund to CLF. The Fund pays CLF’s
employee salaries and related benefits, as well as CLF’s portion of building and operating costs.
Reimbursements of these expenses are determined by applying a ratio of CLF full-time
equivalent employees to the NCUA total, with settlement and payment occurring quarterly. All
other CLF reimbursement expenses are paid annually. The costs of the services provided to CLF
were $553,000 and $637,000 for the years ending December 31, 2012 and 2011, respectively,
and are reflected as a reduction of the expenses shown in the accompanying financial statements.

Other accounts receivable include $0 and $171,000 of amounts due from the CLF as of
December 31, 2012 and 2011, respectively.

(c) Support of CDRLF

Pursuant to the Act, the Fund supports the administration of programs under CDRLF by paying
related personnel and other associated costs. The estimation of administrative expenses includes
personnel related costs, travel, training, telephone, supplies, printing and postage.

For the years ending December 31, 2012 and 2011, administrative support to CDRLF is
estimated at (in thousands):

                                                                                2012              2011

    Personnel                                                               $      347        $      331
    Other                                                                           89                20

    Total                                                                   $      436        $      351




                                              - 12 -
(d) Support of TCCUSF

Pursuant to the Act, the Fund supports the administration of programs under TCCUSF by paying
related personnel and other associated costs. The estimation of administrative expenses includes
personnel related costs, travel, training, telephone, supplies, printing and postage.

For the years ending December 31, 2012 and 2011, administrative support to TCCUSF is
estimated at (in thousands):

                                                                           2012           2011

     Personnel                                                         $     1,838    $     3,674
     Other                                                                      59            104

     Total                                                             $     1,897    $     3,778


In 2012, the Fund began collecting from TCCUSF, reimbursements for the salary and benefits of
certain staff in newly created positions who directly work on TCCUSF-related activities with
settlement and payment occurring quarterly. The total amount associated with these staff was
$231,000 in 2012, which is not included in the above table.

(e) Federal Financial Institutions Examination Council (FFIEC)

NCUA is one of the five Federal agencies that fund FFIEC operations. Under FFIEC’s charter,
NCUA’s Chairman is appointed as a Member and currently serves as its Chairman. FFIEC was
established on March 10, 1979 as a formal inter-agency body empowered to prescribe uniform
principles, standards, and report forms for the Federal examination of financial institutions by
NCUA, the Board of Governors of the Federal Reserve System, the Federal Deposit Insurance
Corporation, the Office of the Comptroller of the Currency, the Consumer Financial Protection
Bureau, and the State Liaison Committee. FFIEC was also established to make
recommendations to promote uniformity in the supervision of financial institutions.
Additionally, FFIEC provides training to staff employed by Member agencies; the Member
agencies are charged for these trainings based on use. For the years ended December 31, 2012
and 2011, FFIEC assessments totaled $868,000 and $828,000, respectively. FFIEC’s 2013
budgeted assessments to NCUA total $748,000 (unaudited).

(f) Real Estate Available for Sale

The Fund purchases homes from employees enrolled in the agency’s home purchase program
who are unable to sell their homes in a specified time period, as mentioned in Note 6.

8.           LEASE COMMITMENTS

Description of Leasing Agreements - The Fund has entered into lease agreements with vendors
for the rental of office space and office equipment, which includes laptops, and copiers.



                                              - 13 -
Operating Leases – The Fund leases a portion of NCUA’s office space under lease agreements
that will continue through 2017. Office rental charges amounted to approximately $1,156,000
and $1,129,000, of which approximately $685,000 and $665,000 were reimbursed by NCUSIF
for 2012 and 2011, respectively. In addition, the Fund leases laptop computers and other office
equipment under operating leases with lease terms that will continue through 2015.

Capital Leases – The Fund leases copier equipment under lease agreements that run through
2017. Amounts presented in the table below include $13,000 of imputed interest.

The future minimum lease payments to be paid over the next five years as of December 31,
2012, before reimbursements, are as follows (in thousands):

Years Ending                                                       Operating           Capital
December 31                                                         Leases             Leases

2013                                                               $    1,664      $         24
2014                                                                    1,174                24
2015                                                                      689                22
2016                                                                      191                15
2017                                                                      193                 6
Thereafter                                                                  -                 -

Total                                                              $    3,911      $         91

Based on the allocation factor approved by the NCUA Board, NCUSIF is expected to reimburse
the Fund for approximately 59.1% of the 2013 operating lease payments.

The Fund, as a lessor, holds operating lease agreements with three tenants, each of whom rents a
portion of the Fund’s building for retail space. The leases carry five year terms with escalating
rent payments. The last of these leases is set to expire in 2015.




                                              - 14 -
he future minimum lease payments to be received from these non-cancelable operating leases at
December 31, 2012 are as follows (amounts in thousands):

Years Ending                                                                      Scheduled
December 31                                                                     Rent Payments

2013                                                                             $          576
2014                                                                                        518
2015                                                                                          71
2016                                                                                        -
2017                                                                                        -
Thereafter                                                                                  -

Total                                                                           $         1,165



9.      RETIREMENT PLANS

Eligible employees of the Fund are covered by Federal Government retirement plans—either the
Civil Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS).
Both plans are defined benefit retirement plans. FERS is comprised of a Social Security Benefits
Plan, a Basic Benefits Plan, and the Thrift Savings Plan. Contributions to the plans are based on
a percentage of an employee’s gross pay. Under the Thrift Savings Plan, employees may also
elect additional contributions up to $17,000 in 2012, and the Fund will match up to 5% of the
employee’s gross pay. In 2012 and 2011, the Fund’s contributions to the plans were
approximately $19,224,000 and $18,211,000, respectively, of which approximately $11,400,000
and $10,726,000, respectively, was allocated to NCUSIF.

These defined benefit plans are administered by the U.S. Office of Personnel Management
(OPM), which determines the required employer contribution level. The Fund does not account
for the assets pertaining to the above plans, and does not have actuarial data with respect to
accumulated plan benefits or the unfunded liability relative to eligible employees. These
amounts are reported by OPM and are not allocated to individual employers.

The Fund established a voluntary defined contribution 401(k) Plan (NCUA Savings Plan),
effective January 1, 2012. The Fund’s policy in 2012 and thereafter is to contribute, 3.0% of an
employee’s compensation as defined in the NCUA Collective Bargaining Agreement (CBA),
Article 9 Compensation and Benefits. NCUA’s contribution for 2012 was $3,655,000. The
operating expense associated with the NCUA Savings Plan in 2012 was $5,000. A total of
59.3% of all costs of the NCUA Savings Plan was allocated to the NCUSIF in 2012. The Fund’s
policy is to match employee contributions up to 1.0% in 2013 and 2.0% in 2014 and thereafter.
In the event that the federal pay freeze is lifted, the match decreases to 0.5% in 2013 and 1.0% in
2014 and thereafter. Matching, vesting, and additional information is published and made
available in a Summary Plan Description.




                                               - 15 -
10.       FAIR VALUE MEASUREMENTS

The following disclosures of the estimated fair values are made in accordance with the
requirements of FASB ASC 820, Fair Value Measurements and Disclosures. Fair value is the
amount that would be received to sell an asset, or paid to transfer a liability in an orderly
transaction between market participants at the measurement date.

The accounting standards established a fair value hierarchy that prioritizes the inputs to valuation
techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted
quoted prices in active markets for identical assets or liabilities (level 1 measurements) and the
lowest priority to measurements involving significant unobservable inputs (level 3
measurements). The three levels of the fair value hierarchy are as follows:

      •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
          liabilities that the Fund has the ability to access at the measurement date
      •   Level 2 inputs are inputs other than quoted prices included within level 1 that are
          observable for the asset or liability, either directly or indirectly
      •   Level 3 inputs are unobservable inputs for the asset or liability.

The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
based on the lowest level input that is significant to the fair value measurement in its entirety.

The Fund has no financial instruments that are subject to fair value measurement on a recurring
basis.

The following table presents the carrying amounts and established fair values (in thousands) of
the Fund’s assets held for sale as of December 31, 2012 and 2011. The impairment charges are
recorded within the statement of revenues, expenses and changes in fund balance and represent
non-recurring fair value measures.

                                        2012                                    2011


                                                    Total                                   Total
                       Amortized    Aggregate    Impairment    Amortized    Aggregate    Impairment
                       Cost Basis   Fair Value     Charges     Cost Basis   Fair Value     Charges

Assets held for sale   $     854    $     854    $      120    $     397    $     397    $      133

Assets held for sale – Assets held for sale represents residences from relocating employees and
is presented at aggregate fair value less cost to sell. The fair value measurement recorded during
the period includes pending purchase contracts, the lower of list prices or appraisals if less than
six months old (if no pending purchase contracts exist), or recent market analyses (if no recent
list prices or appraisals are readily available). Additionally, the fair value incorporates estimated
reductions in the fair value to recognize costs to sell the properties. The Fund believes that these
measurements fairly reflect the most current valuation of the assets. Accordingly, the Fund uses
level 3 inputs to measure the fair value of these investments.


                                                      - 16 -
The carrying values approximate the fair values of certain financial instruments as of December
31, 2012 and 2011, were as follows (in thousands):

                                               2012                         2011
                                       Carrying Estimated           Carrying Estimated
                                       Amount Fair Value            Amount Fair Value
Cash and cash equivalents              $36,521      $36,521         $36,982      $36,982
Due from NCUSIF                          2,040        2,040           1,182        1,182
Employee advances                           25           25              43           43
Other accounts receivable, net             211          211             885          885
Obligation under capital lease              78           78              58           58
Notes payable to NCUSIF                 14,415       14,415          15,756       15,756

Cash and Cash Equivalents – The carrying amounts for cash and cash equivalents financial
instruments approximates fair value as the short-term nature of these instruments does not lead to
significant fluctuations in value. Cash equivalents are U.S. Treasury overnight investments.

Due from NCUSIF – The carrying amounts for the due from NCUSIF financial instruments
approximates fair value, as the amount is scheduled to be paid is within the first quarter of fiscal
year 2013.

Employee Advances – The carrying amounts for receivables from employees’ financial
instruments approximates fair value, as the amount is scheduled to be paid in fiscal year 2013.

Other Accounts Receivable, Net – The carrying amounts for other accounts receivable
approximates fair value, as the original gross amounts have been written down by an allowance
to reflect the net amount that is deemed collectible.

Obligation under Capital Lease – The carrying amounts for the remaining obligations owed on
capital leases financial instruments approximates fair value because the underlying interest rates
approximates rates currently available to the Fund.

Notes Payable to NCUSIF – The carrying amounts for notes payable to NCUSIF financial
instruments approximates fair value due to its variable rate nature.

11.    CONTINGENCIES

NCUA recognizes contingent liabilities when a past event or transaction has occurred, a future
outflow or other sacrifice of resources is probable, and the future outflow or sacrifice of
resources is measurable. NCUA is party to various routine administrative proceedings, legal
actions, and claims brought against it, which has or may ultimately result in settlements or
decisions against the agency. For those matters where an estimate is possible and the loss is
probable, such amount has been accrued in other liabilities as of December 31, 2012.




                                                - 17 -
12.    COLLECTIVE BARGAINING AGREEMENT

NCUA has a collective bargaining agreement (CBA) with the National Treasury Employees
Union (NTEU) that became effective on November 1, 2011. NTEU is the exclusive
representative of approximately 80% of NCUA employees. This agreement will remain in effect
for a period of three years from its effective date and will be automatically renewable for
additional one year periods until otherwise renegotiated by the parties.

13.    SUBSEQUENT EVENTS

Subsequent events have been evaluated through February 14, 2013, which is the date the
financial statements were available to be issued, and management determined that there are no
other items to disclose.




                                             - 18 -
Report # OIG-13-03
National Credit Union Administration
Central Liquidity Facility
Financial Statements as of and for the Years Ended
December 31, 2012 and 2011, and
Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
TABLE OF CONTENTS


                                                      Page



 INDEPENDENT AUDITORS’ REPORT

 FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
   DECEMBER 31, 2012 AND 2011:

     Balance Sheets                                      3

     Statements of Operations                            4

     Statements of Members’ Equity                       5

     Statements of Cash Flows                            6

     Notes to Financial Statements                      7-14
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006



                                          Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Central Liquidity
Facility (CLF), which comprise the balance sheets as of December 31, 2012 and 2011, and the related
statements of operations, members’ equity, and cash flows for the years then ended, and the related notes to
the financial statements.
Management's Responsibilities
CLF management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
(Internal Control Over Financial Reporting) that are free from material misstatement, whether due to fraud
or error.
Auditors’ Responsibilities
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-
04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity's preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity's internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly in all material respects, the financial
position of the National Credit Union Administration Central Liquidity Facility as of December 31, 2012
and 2011, and the results of its operations, members’ equity, and cash flows for the years then ended in
accordance with U.S. generally accepted accounting principles.


                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Other Reporting Responsibilities
Internal Control Over Financial Reporting
In planning and performing our audit of the financial statements, we considered the CLF’s internal control
as a basis for designing audit procedures that are appropriate in the circumstances for the purpose of
expressing our opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the CLF’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the CLF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses. Given these limitations, during our audit we did not identify any deficiencies in internal
control that we consider to be material weaknesses. However, material weaknesses may exist that have not
been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the CLF’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04. However, providing an opinion on compliance with those provisions was not an objective of
our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed no
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 07-04.
Purpose of the Other Reporting Responsibilities
The purpose of the communication related to internal control over financial reporting and compliance and
other matters described in the Other Reporting Responsibilities section is solely to describe the scope of
our testing of internal control and compliance and the result of that testing and not to provide an opinion on
the effectiveness of the entity’s internal control or compliance. This communication is an integral part of
an audit performed in accordance with Government Auditing Standards in considering the entity’s internal
control and compliance. Accordingly, this communication is not suitable for any other purpose.



February 14, 2013




                                                      2
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
AS OF DECEMBER 31, 2012 AND 2011
(DOLLARS IN THOUSANDS, EXCEPT SHARE DATA)

                                                         2012                 2011
ASSETS


Cash and Cash Equivalents (Notes 3 and 6)            $           39,168   $      1,989,641
Accounts Receivable (Notes 4 and 6)                                   -              1,000
Investments Held to Maturity
   (Net of $1,035 and $622 unamortized premium,
   fair value of $73,055 and $109,957 as of 2012
   and 2011, respectively) (Notes 5 and 6)                       72,107              108,872
Accrued Interest Receivable (Note 6)                               196                  145


TOTAL                                                $          111,471   $      2,099,658



LIABILITIES AND MEMBERS’ EQUITY


LIABILITIES:
 Accounts Payable (Note 6)                           $              76    $             219
 Other Liabilities (Notes 6 and 7)                                3,224               12,310
 Dividends Payable (Note 6)                                         19                  366
 Member Deposits (Notes 6 and 9)                                   299                  322


     Total Liabilities                                            3,618               13,217

MEMBERS’ EQUITY
 Capital Stock – Required ($50 per share par
 value authorized: 3,223,232 and 82,403,220
 shares; issued and outstanding: 1,611,616
 and 41,201,610 shares as of 2012 and 2011,
 respectively) (Notes 7 and 8)                                   80,581          2,060,081
 Retained Earnings                                               27,272               26,360


     Total Members’ Equity                                      107,853          2,086,441

TOTAL                                                $          111,471   $      2,099,658


See accompanying notes to financial statements.




                                               -3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011
(DOLLARS IN THOUSANDS)

                                                            2012               2011


REVENUE:
 Investment Income                                      $          1,661   $          8,101

      Total Revenue                                                1,661              8,101

EXPENSES: (Note 11)
 Personnel Services                                                 417                437
 Personnel Benefits                                                 107                111
 Other General and Administrative Expenses                           57                 89

      Total Operating Expenses                                      581                637

 Interest – Liquidity Reserve                                          -                 1

      Total Expenses                                                581                638

NET INCOME                                              $          1,080   $          7,463



See accompanying notes to financial statements.




                                                  -4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS’ EQUITY
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011
(DOLLARS IN THOUSANDS, EXCEPT SHARE DATA)


                                                            Capital Stock
                                                                                          Retained
                                                  S hares               Amount            Earnings          Total


BALANCE – December 31, 2010                       39,118,159        $        1,955,908    $   22,006    $     1,977,914


 Issuance of Required Capital Stock                2,378,097                   118,905                         118,905

 Redemption of Required Capital Stock
   (Note 7)                                        (294,646)                  (14,732)                         (14,732)

 Dividends Declared ($0.08/share) (Notes
                                                                                              (3,109)           (3,109)
  8 and 9)


 Net Income                                                                                    7,463                7,463


BALANCE – December 31, 2011                       41,201,610                 2,060,081        26,360          2,086,441


 Issuance of Required Capital Stock                  447,305                    22,365                          22,365

 Redemption of Required Capital Stock         (40,037,299)                  (2,001,865)                     (2,001,865)
   (Note 7)


 Dividends Declared ($0.01/share) (Notes
                                                                                               (168)                (168)
   8 and 9)


 Net Income                                                                                    1,080                1,080

BALANCE – December 31, 2012                        1,611,616        $           80,581    $   27,272    $      107,853


See accompanying notes to financial statements.




                                                               -5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011
(DOLLARS IN THOUSANDS)

                                                                2012              2011

CASH FLOWS FROM OPERATING ACTIVITIES:
Net income                                                  $       1,080     $       7,463
Adjustments to reconcile net income
 to net cash provided by operating activities:
   Amortization of investment premiums                                376             4,927
   (Increase)/decrease in accrued interest receivable                 (51)              355
   (Decrease)/increase in accounts payable                           (143)              (20)
   (Decrease)/increase in other liabilities                          (272)              272

    Net cash provided by operating activities                          990           12,997

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                        (1,962,123)       (1,685,858)
 Proceeds from maturing investments                              1,999,511         3,548,615

    Net cash provided by investing activities                      37,388         1,862,757

CASH FLOWS FROM FINANCING ACTIVITIES:
 Issuance of required capital stock                                 22,333          118,905
 Dividends paid (notes 8 and 9)                                       (505)          (4,222)
 Redemption of required capital stock                           (2,010,649)          (2,694)
 Withdrawal of member deposits, net                                    (30)              (7)

    Net cash provided by/(used in) financing activities         (1,988,851)         111,982

NET INCREASE/(DECREASE) IN CASH AND CASH                        (1,950,473)       1,987,736
EQUIVALENTS

CASH AND CASH EQUIVALENTS - beginning of year                   1,989,641             1,905

CASH AND CASH EQUIVALENTS - end of year                     $      39,168     $   1,989,641

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION - cash paid during the year for interest       $            -    $            -

See accompanying notes to financial statements.




                                                      -6-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2012 and 2011_________________________

1. ORGANIZATION AND PURPOSE

The National Credit Union Administration (NCUA) Central Liquidity Facility (CLF) was created by
the National Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a
mixed-ownership Government corporation under the Government Corporation Control Act. CLF
exists within NCUA and is managed by the NCUA Board. CLF became operational on October 1,
1979.

CLF was created to improve the general financial stability of credit unions by serving as a liquidity
lender to credit unions experiencing unusual or unexpected liquidity shortfalls. CLF accomplishes its
purpose by lending funds, subject to certain statutory limitations, when a liquidity need arises.

CLF is subject to various Federal laws and regulations. CLF’s operating budget requires
Congressional approval, and CLF may not make loans to members for the purpose of expanding
credit union loan portfolios. CLF’s investments are restricted to obligations of the U.S. Government
and its agencies, deposits in federally insured financial institutions, and shares and deposits in credit
unions. Borrowing is limited by statute to 12 times the subscribed capital stock and surplus. See
Notes 8 and 10 for further information about the capital stock and the CLF's borrowing authority.

2. SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation – CLF has historically prepared its financial statements in accordance with
accounting principles generally accepted in the United States of America (GAAP), based on
standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
standards-setting body for the establishment of GAAP with respect to the financial statements of
Federal Government entities. FASAB has indicated that financial statements prepared based upon
standards promulgated by FASB may also be regarded as in accordance with GAAP for those
Federal entities, such as CLF, that have issued financial statements based upon FASB standards in
the past.

Basis of Accounting – CLF maintains its accounting records on the accrual basis of accounting.
CLF recognizes interest income on loans and investments when they are earned, and recognizes
interest expense on borrowings when it is incurred. CLF recognizes expenses when incurred. CLF
accrues and records dividends on capital stock monthly and pays dividends quarterly.

Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets,
liabilities, and disclosures of contingent assets and liabilities at the date of the financial statements,



                                                    -7-
and the reported amounts of revenues and expenses during the reporting period. Actual results could
differ from management’s estimates.

Cash and Cash Equivalents – CLF considers all highly liquid investments with a maturity of three
months or less when purchased to be cash equivalents.

Investments – By statute, CLF investments are restricted to obligations of the U.S. Government and
its agencies, deposits in federally insured financial institutions, and shares and deposits in credit
unions. All investments are classified as held-to-maturity under FASB Accounting Standards
Codification (ASC) topic 320-10-25-1, Classification of Investment Securities, as CLF has the intent
and ability to hold these investments until maturity. Accordingly, CLF reports investments at
amortized cost. Amortized cost is the face value of the securities plus the unamortized premium or
less the unamortized discount.

Premiums and discounts are amortized or accreted over the life of the related held-to-maturity
investment as an adjustment to yield using the effective interest method. Such amortization and
accretion is included in the “investment income” line item in the Statement of Operations.

CLF records investment transactions when they are made.

Loans and Allowance for Loan Losses – Loans, when made to members, are on a short-term or
long-term basis. Loans are recorded at the amount disbursed and bear interest at the higher of the
Federal Financing Bank Advance Rate or the Federal Reserve Bank Discount Window Primary
Credit Rate. By regulation, Member Liquidity Needs Loans are made on a fully secured basis. CLF
obtains a security interest in the assets of the member equal to at least 110 percent of all amounts
due. CLF does not currently charge additional fees for its lending activities. There was no lending
activity during 2012 and 2011.

Borrowings – CLF’s borrowings are recorded when they are received, do not hold premiums or
discounts, and are carried at cost. Repayments are recorded when they are made.

Tax-Exempt Status – CLF is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines, and penalties and other sources are recorded when it is probable that a
liability has been incurred and the amount can be reasonably estimated. Legal costs incurred in
connection with loss contingencies are expensed as incurred.

Reclassifications – Certain amounts in the financial statements have been reclassified to conform to
the current year presentation.

Related Parties – CLF exists within NCUA and is managed by the NCUA Board. NCUA
Operating Fund (OF) provides CLF with information technology, support services, and supplies. In
addition, NCUA OF pays CLF’s employees’ salaries and benefits, as well as CLF’s portion of
monthly building operating costs. The allocation formula to calculate these expenses is based on the


                                                  -8-
number of full-time employees of the respective entities and the estimated amount of time CLF
employees spend performing CLF functions.

3. CASH AND CASH EQUIVALENTS

CLF’s cash and cash equivalents consisted of the following:

                                                        As of               As of
                                                    December 31,        December 31,
     (Dollars in thousands)                             2012                2011

     U.S. Treasury Securities                        $         39,157    $     1,988,905
     USC Bridge Daily Transaction Share Account                    -                447
     PNC Bank                                                      -                289
     SunTrust Bank                                                11                  -


          Total                                      $         39,168    $     1,989,641


The USC Bridge Daily Transaction Share Account, which was a variable rate share account used
primarily for CLF clearing transactions, closed during 2012. The account was available only to
CLF. U.S. Treasury securities had an initial term of less than three months when purchased.

4. ACCOUNTS RECEIVABLE

At December 31, 2012, CLF did not have any accounts receivable. At December 31, 2011, CLF
recognized $1 million in accounts receivable for the pending receipt of a matured U.S. Treasury
Note. The security matured on December 31, 2011 and was removed from investments, but
proceeds were not received until January 2012.

5. INVESTMENTS

The carrying amount, gross unrealized holding gains, gross unrealized losses, and the fair value of
held-to-maturity debt securities as of December 31, 2012 and 2011 were as follows:
                                                                                       Gross
                                                                     Gross           Unrealized
                                              Carrying            Unrealized          Holding
 (Dollars in thousands)                       Amount             Holding Gains        Losses      Fair Value
 As of December 31, 2012
 U.S. Treasury Securities                 $        72,107         $          994      $    (46)   $    73,055


 As of December 31, 2011
 U.S. Treasury Securities                 $       108,872         $     1,085         $       -   $   109,957




                                                         -9-
Maturities of debt securities classified as held-to-maturity were as follows:

                                                 As of December, 31 2012     As of December 31, 2011
                                                   Net                        Net
                                                 Carrying      Aggregate    Carrying       Aggregate
        (Dollars in thousands)                   Amount        Fair Value   Amount         Fair Value
        Due in one year or less                    $   999        $ 1,002       $ 98,849     $ 99,050
        Due after one year through five years       42,890         43,221          5,009        5,286
        Due after five years through ten years      28,218         28,832          5,014        5,621
              Total                                $72,107        $73,055       $108,872     $109,957



6. FAIR VALUE MEASUREMENTS

The fair value of an instrument is the amount that would be received to sell an asset or would be paid
to transfer a liability in an orderly transaction between market participants by the measurement date.
The following methods and assumptions were used to estimate the fair value of each class of
financial instruments:

Cash and cash equivalents– The carrying amounts for cash and cash equivalents approximate fair
value.

Accounts receivable – The carrying amount for accounts receivable approximates fair value because
it represents pending proceeds from a maturing U.S. Treasury security.

Investments held-to-maturity – CLF’s investments held-to-maturity are all comprised of U.S.
Treasury Securities, for which a share price can be readily obtained. The fair value for investments
is determined using the quoted market prices at the reporting date (observable inputs).

Member Deposits – Funds maintained with CLF in excess of required capital amounts are recorded
as member deposits. These deposits are due upon demand; therefore, carrying amounts approximate
the fair value.

Other – Accrued interest receivable, accounts payable, other liabilities, and dividends payable are
recorded at book values, which approximate the respective fair values because of the short maturity
of these instruments.




                                                       - 10 -
The following table presents the carrying amounts and established fair values of CLF’s financial
instruments as of December 31, 2012 and 2011. The carrying values and approximate fair values of
financial instruments are as follows:

                                           As of December 31,         As of December 31,
                                                  2012                       2011
           Financial Instruments          Carrying     Fair          Carrying     Fair
           (Dollars in thousands)          Value       Value          Value       Value

           Cash and cash equivalents        $39,168        $39,168   $1,989,641   $1,989,641
           Accounts receivable                    -              -        1,000        1,000
           Investments held-to-maturity      72,107         73,055      108,872      109,957
           Accrued interest receivable          196            196          145          145
           Accounts payable                      76             76          219          219
           Other liabilities                  3,224          3,224       12,310       12,310
           Dividends payable                     19             19          366          366
           Member deposits                      299            299          322          322



7. OTHER LIABILITIES

Other liabilities include pending redemptions of capital stock and advance deposits from a future
member credit union. CLF reclassified $3.2 million and $12.0 million of capital stock to other
liabilities in 2012 and 2011, respectively, to reflect the pending redemption of 64,487 and 240,753
shares, respectively, of required capital stock at the request of a regular (non-agent) member credit
union. Capital stock is redeemable upon demand by members, subject to certain conditions as set
out in the Act and NCUA regulations. The redemption will occur in 2013. Dividends are paid on
these shares until they are redeemed. As of December 31, 2011, other liabilities also include $272.0
thousand in advance deposits from a credit union that became a member in 2012.

8. CAPITAL STOCK

Membership in CLF is voluntary and is open to all credit unions that purchase a prescribed amount
of capital stock. CLF capital stock is non-voting and shares have a par value of $50. There are two
types of membership—regular (natural person credit unions) and agent (through corporate credit
unions). Natural person credit unions may borrow from CLF directly as a regular member or
indirectly through an agent member.

The capital stock account represents subscriptions remitted to CLF by member credit unions.
Regular members’ required subscription amounts equal one-half of one percent of their paid-in and
unimpaired capital and surplus, one-half of which is required to be remitted to CLF. Agent
members’ required subscription amounts equal one-half of one percent of the paid-in and unimpaired
capital and surplus of all of the natural person credit unions served by the agent member, one-half of
which is required to be remitted to CLF. In both cases, member credit unions are required to hold
the remaining one-half in assets subject to call by the NCUA Board. These unremitted subscriptions
are not reflected in CLF’s financial statements. Subscriptions are adjusted annually to reflect



                                                      - 11 -
changes in the member credit unions’ paid-in and unimpaired capital and surplus. Dividends are
non-cumulative, and are declared and paid on required capital stock.

A member of CLF whose capital stock account constitutes less than five percent of the total capital
stock outstanding may withdraw from membership in CLF six months after notifying the NCUA
Board of its intention. A member whose capital stock account constitutes five percent or more of the
total capital stock outstanding may withdraw from membership in CLF two years after notifying the
NCUA Board of its intention. As of December 31, 2012, CLF had one member withdrawal request
pending. As of December 31, 2011, CLF had one member withdrawal request pending.

The required capital stock is redeemable upon demand by the members, subject to certain conditions
as set out in the Act and NCUA regulations; however, the stock is not deemed “mandatorily
redeemable” as defined in FASB ASC 480-10-25-7, Mandatorily Redeemable Financial
Instruments; therefore capital stock is classified in permanent equity.

In FY1984, CLF accepted an agent membership request from U.S. Central Federal Credit Union
(USC) on behalf of its corporate credit union members. CLF appointed USC as the agent group
representative and master servicer for all loans extended by CLF. USC relied on the appropriate
corporate credit union as its agent to service loans owed by its natural person credit union members.

On September 24, 2010, the NCUA Board announced the Corporate System Resolution Program
(CSRP). The CSRP is a multi-stage plan for stabilizing the corporate credit union system, providing
short-term and long-term funding to resolve a portfolio of securities held by the failed corporate
credit unions, and establishing a new regulatory framework for corporate credit unions.

As a part of the CSRP, the NCUA Board liquidated five corporate credit unions, including USC on
October 1, 2010, and placed them in the Asset Management Estate (AME) status.

To facilitate the resolution process, the NCUA Board chartered four bridge corporate credit unions
(Bridge Corporates) including USC Bridge. The Bridge Corporates were established to function in a
temporary capacity and were formed by the NCUA Board as chartered private enterprises to
purchase selected assets, including CLF capital stock held by USC, and assume liabilities and
member shares of the five liquidated corporate credit unions in order to provide uninterrupted
services to the natural person credit unions that were members of the now failed corporate credit
unions.

In conjunction with CSRP efforts, the NCUA Board had been actively pursuing a credit union
system-led resolution to the Bridge Corporates to facilitate a number of transitions, including the
CLF agent-member structure. Neither USC Bridge’s members nor NCUA were able to secure the
transition of USC’s products and services to a successor entity, thereby leading to the Board’s
decision to wind-down and liquidate USC Bridge’s operations as of October 29, 2012. Accordingly,
USC Bridge discontinued its role as the agent group representative for CLF and CLF redeemed USC
Bridge’s capital stock on October 25, 2012. The result of the liquidation of the agent group
representative is that, as of December 31, 2012, CLF membership is comprised solely of regular
members, and no agent arrangement is in place. As of December 31, 2012, USC Bridge had been



                                                - 12 -
liquidated and held no CLF capital stock. As of December 31, 2011, $2.0 billion of CLF capital
stock was held by USC Bridge, on behalf of its member corporate credit union members.

CLF’s capital stock accounts were composed of the following as of December 31, 2012 and 2011:

                                  As of December 31, 2012                As of December 31, 2011
     (Dollars in thousands,                                              Shares         Amount
                                  Shares            Amount
     except share data)

     Regular members               1,611,616          $ 80,581           1,288,203       $    64,411
     Agent members                         -                 -          39,913,407        1,995,670

           Total                   1,611,616          $ 80,581          41,201,610       $ 2,060,081

Dividends on capital stock are declared based on available earnings and the dividend policy set by
the NCUA Board. Dividends are accrued monthly based on prior quarter-end balances and paid on
the first business day after the quarter-end. The dividend rates paid on capital stock for both regular
and agent members change quarterly.

9. MEMBER DEPOSITS

Member deposits represent amounts remitted by members over and above the amount required for
membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
required capital stock.

10. BORROWING AUTHORITY

CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its
subscribed capital stock and surplus. As of December 31, 2012 and 2011, CLF’s statutory borrowing
authority was $2.3 billion and $49.8 billion, respectively.

As described above, the borrowing authority amounts are referenced to subscribed capital stock and
surplus of the CLF. In conjunction with the closure of USC Bridge, CLF redeemed the Agent Group
stock on October 25, 2012. The termination of Agent Membership resulted in a significant decline in
the amount of subscribed capital stock. In turn, the level of corresponding borrowing authority also
declined as only Regular members of the Facility currently contribute capital to CLF. The CLF
borrowing arrangement is exclusively with the Federal Financing Bank (FFB). NCUA maintains a
note purchase agreement with FFB on behalf of CLF. Under the terms of its agreement, CLF
borrows from FFB as needed. Under terms prescribed by the note purchase agreement, CLF
executes promissory notes in amounts as necessary and renews them annually. Advances made
under the current promissory notes can be made in amounts up to the statutory borrowing authority
and cannot mature later than March 31, 2013. FFB was notified of the reduction in the Maximum
Principal Amount in accordance with the terms of the Note (paragraph 4(b)).

As of December 31, 2012, CLF was in compliance with its borrowing authority.


                                                 - 13 -
11. RELATED PARTY TRANSACTIONS

NCUA OF pays the salaries and related benefits of CLF’s employees, CLF’s building and operating
costs. Expenses are allocated by applying the ratio of CLF full-time equivalent employees to the
NCUA total. These expenses are reimbursed to NCUA OF quarterly. All other CLF reimbursement
expenses are paid annually. The total amount charged by NCUA was approximately $553.0
thousand and $637.0 thousand respectively, for December 31, 2012 and 2011. Accounts payable
includes approximately $0 and $171.0 thousand respectively, for December 31, 2012 and 2011, due
to NCUA OF for services provided.

12. SUBSEQUENT EVENTS

Management evaluated all events and transactions that occurred after December 31, 2012 through
February 14, 2013, which is the date CLF issued these financial statements. Management
determined that there are no other items to disclose.




                                              - 14 -
Report # OIG-13-04
National Credit Union Share
Insurance Fund
Financial Statements as of and for the Years Ended December 31, 2012 and 2011
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS



                                                                       Page

OVERVIEW                                                                  1

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS                      7

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2012
AND 2011:

Balance Sheets                                                           10

Statements of Net Cost                                                   11

Statements of Changes in Net Position                                    12

Statements of Budgetary Resources                                        13

Notes to the Financial Statements                                        14
Overview 
 
I. Mission and Organizational Structure 
 
NCUSIF Mission

The National Credit Union Administration (NCUA) administers the National Credit Union Share
Insurance Fund1 (NCUSIF or Fund). Congress created the NCUSIF in 1970 to insure members’ shares
(deposits) in credit unions. The NCUSIF is backed by the full faith and credit of the U.S. Government.
As of December 2012, the NCUSIF insures $839.4 billion in member shares in over 6,800 credit unions.

The NCUSIF protects members’ accounts in insured credit unions in the unlikely event of a credit union
failure. The NCUSIF insures the balance of each members’ account, dollar-for-dollar, up to the standard
maximum share insurance amount of $250,000, including principal and posted dividends through the date
of the failure. The Fund insures all types of member shares received by a credit union in its usual course
of business.

The NCUSIF also provides funding when the NCUA Board determines that some form of financial
assistance to troubled credit unions will result in the least resolution cost. Examples of financial
assistance include:
     a waiver of statutory reserve requirements;
     a guaranteed line of credit, permanent cash assistance in the form of a subordinated note; and
     the identification of an assisted merger partner.

When a credit union is no longer able to continue operating and assistance alternatives are not practical,
the credit union will be liquidated and the NCUSIF will pay members’ shares up to the standard
maximum insurance amount.

Organizational Structure

NCUA’s Director of the Office of Examination and Insurance (E&I) is responsible for overseeing the
agency’s examination and supervision program. NCUA’s E&I Director is also the President of the
NCUSIF and responsible for risk management of the NCUSIF. Regional offices primarily conduct
examinations and other NCUA offices provide operational and administrative services to the NCUSIF.
The Asset Management and Assistance Center (AMAC) conducts credit union liquidations. AMAC
establishes an Asset Management Estate (AME) to collect the obligations due to the credit union,
monetize assets and distribute amounts to claimants, including the NCUSIF, according to their respective
regulatory payout priorities.
 
II. Performance Goals, Objectives and Results  
 
Consistent with the NCUA 2011-2014 Strategic Plan, the agency prepared the NCUA Annual
Performance Plan for 2013, which included the high priority performance goal to “monitor and control
risks in consumer credit unions.” The plan measures success for this goal as a decrease in the ratio of
“net losses for current year failures to average insured shares.” For 2012, the ratio was 0.026%, as
compared to 0.007% for 2011. While there was an increase in the measure, overall, NCUSIF losses were
not significant.

1
  The NCUSIF is one of five funds established in the U.S. Treasury and administered by the NCUA Board. The four permanent
funds include the NCUSIF, the Operating Fund, the Central Liquidity Facility (CLF) and the Community Development
Revolving Loan Fund. In addition, the NCUA Board administers the Temporary Corporate Credit Union Stabilization Fund
(TCCUSF) that was established in 2009 to accrue the losses of corporate credit unions during the credit crisis and to recover such
losses over time from insured credit unions. All five funds report under separate financial statements.


                                                                1
In measuring the performance of the NCUSIF for 2012 and 2011, the following additional measures
should be considered.

                                           2012 and 2011 Performance Measures
                                                        December 31, 2012                         December 31, 2011
         Equity Ratio (Before Distribution)                              1.31%                                    1.32%
         Insurance and Guarantee Program                         $412.5 million                           $606.6 million
         Liabilities (Contingent Liability)
         Net Position                                              $11.3 billion                               $10.8 billion
         Insured Shares                                           $839.4 billion                              $795.3 billion
         Credit Union Involuntary Liquidations                                22                                          16
         and Assisted Mergers
         Assets in CAMEL2 4 and 5 rated                            $19.0 billion                               $29.4 billion
         Credit Unions

The equity ratio and contingent liability are significant financial performance measures in assessing the
ongoing operations of the NCUSIF. The equity ratio serves as a mechanism to balance funding from
capitalization deposits and premium assessments in response to changes in insured share growth,
insurance losses, interest income from U.S. Treasury security investments, as well as other revenues and
expenses.

Equity Ratio and Normal Operating Level
The financial performance of the NCUSIF revolves around the equity ratio and the Normal Operating
Level (NOL). The equity ratio is calculated as the ratio of the contributed one percent deposit plus
cumulative results of operations, excluding net cumulative unrealized gains and losses on investments, to
the aggregate amount of the insured shares in all insured credit unions. The NOL is the desired long-term
target equity level for the NCUSIF. The NCUA Board sets the NOL between 1.20 and 1.50 percent. The
NCUA Board set the current NOL at 1.30 percent.

By statute, when the equity ratio falls below 1.20 percent, the NCUA Board must establish and implement
a restoration plan to rebuild the equity ratio. In 2012 and 2011, the NCUA Board did not assess a
premium charge to insured credit unions for the NCUSIF. The NCUSIF pays a distribution when the
equity ratio exceeds the NOL at year-end. When the NCUSIF or the Temporary Corporate Credit Union
Stabilization Fund (TCCUSF) does not have an outstanding borrowing from the U.S. Treasury, the
distribution is paid to insured credit unions.

Despite the stresses in the financial services industry resulting from the recent financial crisis, the equity
ratio was at 1.31 percent, slightly above the NOL as of the year-end 2012. This resulted in a distribution
payable of $88.1 million to TCCUSF to reduce the equity ratio to 1.30 percent. For 2011, the NCUSIF
ended the year with an equity ratio of 1.32 percent, which resulted in a distribution of $278.6 million to
TCCUSF to reduce the equity ratio to 1.30 percent.

Insurance Losses (Contingent Liabilities)
Through its supervision process, NCUA applies a supervisory rating system to assess each insured credit
union’s relative health in the adequacy of Capital, the quality of Assets, the capability of Management,
the quality and level of Earnings, and the adequacy of Liquidity (CAMEL), applying a rating to the credit
union ranging from “1” (strongest) to “5” (weakest). The NCUSIF’s contingent liability is derived by
applying expected failures based on CAMEL ratings and historical loss rates. In addition, specific
analysis is performed on those insured credit unions where failure is imminent or where additional
information is available that may affect the estimate of losses.


2
  CAMEL is the acronym for Capital, the quality of Assets, the capability of Management, the quality and level of Earnings, and
the adequacy of Liquidity.
                                                               2
NCUA identifies credit unions at risk of failure through the supervisory and examination process, and
estimates losses based upon economic trends and credit unions’ financial condition and operations.
NCUA also evaluates overall credit union economic trends and monitors potential system-wide risk
factors, such as increasing levels of consumer debt, bankruptcies, and delinquencies. NCUA uses the
CAMEL rating system to assess a credit union’s financial condition and operations. The CAMEL rating
system is a tool to measure risk and allocate resources for supervisory purposes. NCUA periodically
reviews the CAMEL rating system to respond to continuing economic and regulatory changes in the
credit union industry.

The credit union industry improved during 2012 as reflected by the reduction in assets in CAMEL 4 and 5
rated credit unions as compared to 2011. Assets in CAMEL 4 and 5 rated credit unions dropped to $19.0
billion at the end of 2012, versus $29.4 billion at the end of 2011. This decrease contributed to a
reduction in amounts for the Insurance and Guarantee Program Liabilities on the NCUSIF balance sheets.
The NCUSIF ended 2012 with Insurance and Guarantee Program Liabilities of $412.5 million to cover
potential losses as compared with $606.6 million for the previous year-end, a reduction of $194.1 million.

Due to uncertain systemic risks and the possibility of variances from historical data, actual losses could
differ materially from the contingent liabilities recorded by the NCUSIF.

Performance measures are designed to enable management and our stakeholders to assess programs and
financial performance and to use this information to make improvements. Performance measures have
inherent limitations including the change over time in the correlation of cause and effect. A strong
correlation between cause and effect in one period may not continue into the next. In addition,
performance measures may not address systemic risks, which can have a significant determination on
future results.

III. Financial Statement Analysis  
      
The NCUSIF ended 2012 in a strong position as a result of the growth of Total Assets, a reduction in
Insurance and Guarantee Program Liabilities, which more than offset the growth of Operating Expenses
and a decline in Interest Revenue.

                                 Summarized Financial Information (in thousands)
                                                December 31, 2012               December 31, 2011
        Total Assets                                        $11,874,691                    $11,675,484
        Investments, Net                                     11,293,087                      11,392,576
        Notes Receivable, Net                                   249,254                          70,000
        Receivables from Asset                                  252,029                         114,741
        Management Estates, Net
        Insurance and Guarantee Program                         412,452                         606,617
        Liabilities
        Contributed Capital                                   8,315,011                       7,805,718
        Net Position                                         11,283,852                      10,788,878
        Operating Expenses                                      141,237                         132,358
        Provision for Insurance Losses,                         (74,874)                      (525,678)
        Reserve Expense (Reduction)
        Total Net Cost/(Income) of                                54,685                      (401,087)
        Operations
        Cumulative Results of Operations                      2,968,841                       2,983,160
        Interest Revenue - Investments                          206,995                         226,011

Balance Sheet Highlights
Assets grew by $199.2 million in 2012. Asset growth primarily came from Contributed Capital, which
increased by $509.3 million during 2012. In addition, Investments reflect a $99.5 million decreased as
investments were used to help fund the acquisition of a collateralized senior note receivable and fund
                                                     3
activities in AMEs. The collateralized senior note receivable was $179.3 million as of the 2012 year-end
and Receivables from Asset Management Estates increased by $137.3 million in 2012.

Insurance and Guarantee Program Liabilities, referred to as contingent liabilities, were $412.5 million and
$606.6 million as of December 31, 2012 and 2011, respectively. The decrease reflects improved financial
strength in the credit union industry, as reflected in the decline in assets of CAMEL 4 and 5 rated credit
unions over 2012.

Statements of Net Cost Highlights
Total Net Cost of Operations was $54.7 million for 2012, as compared to Total Net Income from
Operations for 2011 of $401.1 million. In 2012, like 2011, the decline in Insurance and Guarantee
Program Liabilities resulted in a reduction in reserve expenses related to insurance losses in the
Statements of Net Cost. The reduction was $74.9 million for 2012 versus $525.7 million for 2011.

Cumulative Results of Operations Highlights
Cumulative results of operations decreased by $14.3 million in 2012. This decrease was due to Interest
Revenue of $207.0 million, distribution to TCCUSF of $88.1 million, net unrealized losses on
Investments of $78.5 million and Net Cost of Operations of $54.7 million. Interest Revenue was the
primary source of funds to partially offset expenses and obligations.

As of December 31, 2012 and 2011, the NCUSIF recorded an estimate for the distribution payable due to
the TCCUSF totaling $88.1 million and $278.6 million, respectively, thereby bringing the equity ratio
down to its NOL of 1.30 percent.
 
Statements of Budgetary Resources Highlights
Activity impacting budget totals of the overall Federal Government is recorded in the NCUSIF’s
Statements of Budgetary Resources. The NCUSIF’s net outlays were negative, meaning that NCUSIF had
net cash inflows of $280.2 million and $289.7 million for 2012 and 2011, respectively. This increase is
primarily the result of the growth of credit union insured shares and the related 1.00 percent contributed
capital deposit adjustment.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the NCUSIF. While the statements have been prepared from the books and records of the
NCUSIF in accordance with U.S. generally accepted accounting principles (GAAP) for Federal entities
and the formats prescribed by the Office of Management and Budget, the statements are in addition to the
financial reports used to monitor and control budgetary resources that are prepared from the same books
and records. The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.

Liquidity Risk and Capital Resources

For liquidity, the NCUSIF maintains cash in its Fund Balance with Treasury (FBWT) as well as
investments in U.S. Treasury Securities. Investments in U.S. Treasury Securities include overnight
investments, which are available for the possibility of urgent liquidity needs.




                                                    4
                           2012 and 2011 Fund Balance with Treasury and Investments
                                                  December 31, 2012            December 31, 2011
        Fund Balance with Treasury                            $2.5 million               $0.4 million
        U.S. Treasury Securities
                Overnight                                   $359.7 million             $558.9 million
                Available-for-Sale                       $10,933.4 million          $10,833.7 million

During 2012, the FBWT account was primarily increased by maturing investments in U.S. Treasury
securities. The FBWT account was decreased by purchases of U.S. Treasury securities, nonexpenditure
transfers, and amounts expended for the purposes of the share insurance program.

The NCUSIF has multiple other sources of funding including:
    capitalization deposits contributed by insured credit unions, as provided by the Federal Credit
      Union Act (FCU Act);
    cumulative results of operations retained by the NCUSIF;
    assessments on insured credit unions, as necessary;
    borrowings from the U.S. Treasury; and
    borrowings from the Central Liquidity Facility (CLF).

The NCUSIF is a revolving fund in the U.S. Treasury and has access to sufficient funds to meet its
obligations, including its Insurance and Guarantee Program Liabilities.
 
Contributed Capital
Each insured credit union must deposit and maintain in the NCUSIF 1.00 percent of its insured shares.
For the years ended December 31, 2012 and 2011, the NCUSIF’s contributed capital from insured credit
unions increased by $509.3 million and $320.6 million, respectively. Total insured shares were $839.4
billion and $795.3 billion as of December 31, 2012 and 2011, respectively.

At December 31, 2012, NCUA estimated the total insured shares to be approximately $839.4 billion,
subject to certified reporting of insured share amounts. We expect that the NCUSIF will receive
additional capitalization deposits of approximately $79.0 million from insured credit unions in early 2013
when NCUA invoices for its biannual contributed capital adjustment.
 
Cumulative Results of Operations
The NCUSIF ended 2012 and 2011 with a total of $3.0 billion in cumulative results of operations.
Interest Revenue is currently the primary source of funds for operations.

Assessments
The NCUA Board may also assess premium charges to all insured credit unions, as provided by the
FCU Act. During the years ended December 31, 2012 and 2011, the NCUA Board did not assess any
premium charges to insured credit unions for the NCUSIF.
 
Borrowing Authority from the U.S. Treasury
The NCUSIF has $6.0 billion in maximum statutory borrowing authority, shared with the TCCUSF, from
the U.S. Treasury. As of December 31, 2012 and 2011, the TCCUSF had $5.1 billion and $3.5 billion in
borrowing outstanding from the U.S. Treasury, respectively; the NCUSIF had no borrowings outstanding.
As a result, the NCUSIF had $0.9 billion and $2.5 billion, respectively, in available borrowing authority
shared with the TCCUSF. The estimated losses and liquidity needs of the TCCUSF are based on the
NCUA's expectations and assumptions about the resolution of failed corporate credit unions, including
the disposition and recovery value of their assets. Actual losses of the TCCUSF, including the TCCUSF's
funding needs, could differ from those estimates. Consequently, additional borrowing for the TCCUSF
reduces funds available from this source.


                                                    5
Borrowing Authority from the CLF
The NCUSIF also has the ability to borrow from the CLF as provided in the FCU Act. At December 31,
2012 and 2011, the NCUSIF did not have any outstanding borrowing from the CLF. The CLF is
authorized by statute to borrow, from any source, an amount not to exceed twelve times its subscribed
capital stock and surplus. NCUA maintains a note purchase agreement with Federal Financing Bank
(FFB) on behalf of CLF. Under the terms of its agreement, CLF borrows from FFB as needed. Under
terms prescribed by the note purchase agreement, CLF executes promissory notes in amounts as
necessary and renews them annually. Advances made under the current promissory notes can be made in
amounts up to the statutory borrowing authority and cannot mature later than March 31, 2013. The CLF
had borrowing capacity under its note purchase agreement with the FFB of $2.3 billion as of
December 31, 2012.

IV. Systems, Controls, and Legal Compliance 
 
The NCUSIF was created by Title II of the FCU Act, 12 U.S.C. §1781 et seq., as amended. In January
2011, the National Credit Union Authority Clarification Act, Public Law 111-382, amended the FCU Act
in part by amending the definitions of “equity ratio” and “net worth.” NCUA, including the NCUSIF, is
exempt from requirements under the Federal Credit Reform Act of 1990 (2 U.S.C. §661e (a) (1)).

Internal controls should be designed to provide reasonable assurance regarding prevention or prompt
detection of unauthorized acquisition, use, or disposition of assets. The Federal Manager’s Financial
Integrity Act (FMFIA) requires agencies to establish management controls over their programs and
financial systems. Accordingly, NCUA management is responsible for establishing and maintaining
effective internal controls and financial management systems that meet the objectives of FMFIA, which
include safeguarding assets and compliance with applicable laws and regulations. NCUA managers
monitor and assess their relevant internal controls and report on their assessment. This allows NCUA
management to provide reasonable assurance that internal controls are operating effectively. NCUA is in
compliance with FMFIA as well as all applicable laws such as the Prompt Payment Act, and the Debt
Collection and Improvement Act. As required by the Improper Payments Elimination and Recovery Act,
we have determined that the NCUSIF’s programs are not susceptible to a high risk of significant improper
payments.




                                                   6
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




                                  Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Share
Insurance Fund (NCUSIF), which comprise the balance sheets as of December 31, 2012 and
2011, and the related statements of net cost, changes in net position, and budgetary resources for
the years then ended, and the related notes to the financial statements.

Management's Responsibilities
Management is responsible for the preparation and fair presentation of these financial statements
in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements (Internal Control Over Financial Reporting) that are free
from material misstatement, whether due to fraud or error.

Auditors’ Responsibilities
Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free from
material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditors’
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity's preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of the entity's internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly in all material respects,
the financial position of the National Credit Union Share Insurance Fund as of December 31,
2012 and 2011, and its net costs, changes in net position, and budgetary resources for the years
then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matter
As discussed in Note 1 to the financial statements, the NCUSIF changed its presentation for
reporting the statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result,
the NCUSIF’s statement of budgetary resources for fiscal year 2011 has been adjusted to
conform to the current year presentation.

Supplemental Information
U.S. generally accepted accounting principles require that the information in the Overview and
Required Supplementary Information be presented to supplement the basic financial statements.
Such information, although not a part of the basic financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or
historical context. We have applied certain limited procedures to the required supplementary
information in accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our
inquiries, the basic financial statements, and other knowledge we obtained during our audits of
the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express
an opinion or provide any assurance.

Other Reporting Responsibilities
Internal Control Over Financial Reporting
In planning and performing our audit of the financial statements, we considered the NCUSIF’s
internal control as a basis for designing audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but not for
the purpose of expressing an opinion on the effectiveness of the NCUSIF’s internal control.
Accordingly, we do not express an opinion on the effectiveness of the NCUSIF’s internal
control.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the first paragraph
of this section and was not designed to identify all deficiencies in internal control that might be
material weaknesses. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material
weaknesses may exist that have not been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the NCUSIF’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts and certain provisions of other laws
and regulations specified in OMB Bulletin No. 07-04. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards or OMB
Bulletin No. 07-04.

Purpose of the Other Reporting Responsibilities
The purpose of the communication related to internal control over financial reporting and
compliance and other matters described in the Other Reporting Responsibilities section is solely
to describe the scope of our testing of internal control and compliance and the result of that
testing and not to provide an opinion on the effectiveness of the entity’s internal control or
compliance. This communication is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the entity’s internal control and compliance.
Accordingly, this communication is not suitable for any other purpose.




February 15, 2013
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
As of December 31, 2012 and 2011
(Dollars in thousands)
                                                                                  2012                 2011
ASSETS
INTRAGOVERNMENTAL
  Fund Balance with Treasury (Note 2)                                         $          2,479     $            423
  Investments, Net - U.S. Treasury Securities (Note 3)                              11,293,087           11,392,576
  Accounts Receivable - Other                                                                8                   10
  Accounts Receivable - Note due from the National
     Credit Union Administration Operating Fund (Note 4)                                  14,415               15,756
  Accrued Interest Receivable (Note 3)                                                    63,154               81,707
Total Intragovernmental Assets                                                      11,373,143           11,490,472
PUBLIC
  Accounts Receivable - Capitalization Deposits from Insured
    Credit Unions, Net (Note 4)                                                              38                   30
  Accounts Receivable - Premium Assessments from Insured
    Credit Unions, Net (Note 4)                                                              -                     73
  Accounts Receivable - Other                                                                 25                  -
 General Property, Plant, and Equipment, Net                                                 -                     18
 Notes Receivable, Net (Note 5)                                                          249,254               70,000
 Accrued Interest Receivable - Notes (Note 5)                                                202                  150
 Other - Receivables from Asset Management Estates (AMEs), Net (Note 6)                  252,029              114,741
Total Public Assets                                                                      501,548              185,012
TOTAL ASSETS                                                                  $     11,874,691     $     11,675,484

LIABILITIES
INTRAGOVERNMENTAL
  Accounts Payable - Due to the Temporary Corporate Credit Union
    Stabilization Fund                                                        $             690    $              -
  Accounts Payable - Due to the National Credit Union Administration
    Operating Fund (Note 9)                                                                2,040                1,182
  Other - Distribution Payable to the Temporary Corporate Credit Union
    Stabilization Fund (Note 8)                                                           88,090              278,641
Total Intragovernmental Liabilities                                                       90,820              279,823
PUBLIC
 Accounts Payable                                                                         87,567                  166
 Other - Insurance and Guarantee Program Liabilities (Note 7)                            412,452              606,617
Total Public Liabilities                                                                 500,019              606,783
TOTAL LIABILITIES                                                                        590,839              886,606
Commitments and Contingencies (Note 7)
NET POSITION
  Contributed Capital (Note 12)                                                      8,315,011            7,805,718
  Cumulative Result of Operations                                                    2,968,841            2,983,160
Total Net Position                                                                  11,283,852           10,788,878
TOTAL LIABILITIES AND NET POSITION                                            $     11,874,691     $     11,675,484

The accompanying notes are an integral part of these financial statements.
                                                                         10
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF NET COST
For the Years Ended December 31, 2012 and 2011
(Dollars in thousands)

                                                                                  2012                 2011
GROSS COSTS
Operating Expenses                                                            $      141,237       $      132,358
Provision for Insurance Losses
  Reserve Expense (Reduction) (Note 7)                                               (74,874)            (525,678)
  AME Receivable Bad Debt Expense (Reduction) (Note 6)                                (2,910)              (6,730)
   Total Gross Costs                                                                  63,453             (400,050)

LESS EARNED REVENUES
Interest Revenue on Note Receivable from the National Credit
   Union Administration Operating Fund (Note 4)                                            (290)                (344)
Interest Revenue on Notes (Note 5)                                                       (2,097)                (150)
Insurance and Guarantee Premium Revenue                                                  (6,381)                (543)
    Total Earned Revenues                                                                (8,768)              (1,037)

TOTAL NET COST/(INCOME) OF OPERATIONS                                         $          54,685    $     (401,087)

The accompanying notes are an integral part of these financial statements.




                                                                         11
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CHANGES IN NET POSITION
For the Years Ended December 31, 2012 and 2011
(Dollars in thousands)

                                                                                  2012              2011
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                            $    2,983,160    $    2,370,890

BUDGETARY FINANCING SOURCES
Non-Exchange Revenue
  Interest Revenue - Investments                                                     206,995           226,011
Other
  Distribution to the Temporary Corporate Credit Union
  Stabilization Fund (Note 8)                                                        (88,090)         (278,641)
OTHER FINANCING SOURCES
Non-Exchange Revenue
  Net Unrealized Gain/(Loss) - Investments                                           (78,539)          263,813
Total Financing Sources                                                               40,366           211,183
(Net Cost of)/Income from Operations                                                 (54,685)          401,087
Net Change                                                                           (14,319)          612,270
CUMULATIVE RESULTS OF OPERATIONS                                                   2,968,841         2,983,160

CONTRIBUTED CAPITAL (Note 12)
Beginning Balances                                                                 7,805,718         7,485,159
Change in Contributed Capital                                                        509,293           320,559
CONTRIBUTED CAPITAL                                                                8,315,011         7,805,718

NET POSITION                                                                  $   11,283,852    $   10,788,878

The accompanying notes are an integral part of these financial statements.




                                                                         12
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended December 31, 2012 and 2011
(Dollars in thousands)


                                                                                     2012              2011
BUDGETARY RESOURCES (Notes 11 and 14)
Unobligated balance, brought forward, January 1                                  $   10,453,208    $   10,430,194
Spending authority from offsetting collections (mandatory)
 Collected                                                                              940,745           705,451
 Change in receivables from federal sources                                             (18,556)            9,358
 Anticipated nonexpenditure transfer                                                    (88,090)         (278,641)
TOTAL BUDGETARY RESOURCES                                                        $   11,287,307    $   10,866,362

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                             $      746,148    $      413,154
Unobligated balance, end of year:
 Exempt from apportionment                                                           10,541,159        10,453,208
Total unobligated balance, end of year                                               10,541,159        10,453,208
TOTAL STATUS OF BUDGETARY RESOURCES                                              $   11,287,307    $   10,866,362

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, brought forward, January 1                                   $        1,710    $        4,279
Uncollected customer payments from Federal sources, brought forward, January 1          (81,717)          (72,359)
  Obligated balance, start of year (net), before adjustments                            (80,007)          (68,080)
Obligations incurred                                                                    746,148           413,154
Outlays (gross)                                                                        (660,547)         (415,723)
Change in uncollected customer payments from Federal sources                             18,556            (9,358)
Obligated balance, end of year
  Unpaid obligations, end of year                                                        87,311             1,710
  Uncollected customer payments from Federal Sources, end of year                       (63,161)          (81,717)
OBLIGATED BALANCE, END OF YEAR (NET)                                             $       24,150    $      (80,007)

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (mandatory)                                              $      834,099    $      436,168
Actual offsetting collections (mandatory)                                              (940,745)         (705,451)
Change in uncollected customer payments from Federal sources (mandatory)                 18,556            (9,358)
Anticipated offsetting collections (mandatory)                                           88,090           278,641
BUDGET AUTHORITY, NET (MANDATORY)                                                $          -      $          -

Outlays, gross (mandatory)                                                       $      660,547    $      415,723
Actual offsetting collections (mandatory)                                              (940,745)         (705,451)
AGENCY OUTLAYS, NET (MANDATORY)                                                  $     (280,198)   $     (289,728)

The accompanying notes are an integral part of these financial statements.




                                                                         13
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011


    1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

       Reporting Entity
       The National Credit Union Share Insurance Fund (NCUSIF) was created by Title II of the Federal
       Credit Union Act (FCU Act), 12 U.S.C. §1781 et seq., as amended. The NCUSIF was established as a
       revolving fund in the Treasury of the United States (U.S. Treasury), under management of the National
       Credit Union Administration (NCUA) Board (NCUA Board) for the purpose of insuring member share
       deposits in all Federal Credit Unions (FCUs) and in qualifying state-chartered credit unions requesting
       insurance.

       The NCUA exercises direct supervisory authority over FCUs and coordinates required supervisory
       involvement with the state chartering authorities for state chartered credit unions insured by the
       NCUSIF. Federally insured (insured) credit unions are required to report certain financial and statistical
       information to NCUA on a quarterly basis and are subject to periodic examination by the NCUA.
       Information derived through the supervision and examination process provides the NCUA with the
       ability to identify insured credit unions experiencing financial difficulties that may require assistance
       from the NCUSIF.

       Assistance from the NCUSIF may be in the form of a waiver of statutory reserve requirements, liquidity
       assistance in the form of a guaranteed line of credit pursuant to Section 208 of the FCU Act, permanent
       cash assistance in the form of a subordinated note pursuant to Section 208 of the FCU Act or other such
       form. In some cases, a merger partner for the credit union may be sought. Mergers between financially
       troubled credit unions and stronger credit unions may also require NCUSIF assistance. Merger
       assistance may be in the form of cash assistance, purchase of certain assets by the NCUSIF, and/or
       guarantees of the values of certain assets (e.g., primarily loans). When a credit union is no longer able
       to continue operating and the merger and assistance alternatives are not practical, the NCUSIF or the
       appropriate state supervisory authority may liquidate the credit union. In a liquidation, the NCUSIF
       pays members’ shares up to the maximum insured amount, and monetizes the credit union’s assets.

       Fiduciary Responsibilities
       Fiduciary activities are the collection or receipt, management, protection, accounting, investment, or
       disposition by the Federal Government of cash or other assets, in which non-federal individuals or
       entities have an ownership interest that the Federal Government must uphold. NCUA’s Asset
       Management and Assistance Center (AMAC) conducts liquidations and performs management and
       recovery of assets for failed credit unions. Assets and liabilities of liquidated credit unions reside in
       Asset Management Estates (AMEs). These assets and liabilities are held in part, for the primary benefit
       of non-federal parties and therefore are considered fiduciary in accordance with Federal Accounting
       Standards Advisory Board (FASAB) Statement of Federal Financial Accounting Standards (SFFAS)
       No. 31, Accounting for Fiduciary Activities. Fiduciary assets are not assets of the Federal Government
       and therefore are not recognized on the Balance Sheet. Additionally, NCUA entity assets are non-
       fiduciary.

       Sources of Funding
       Deposits insured by the NCUSIF are backed by the full faith and credit of the United States. The
       NCUSIF has multiple sources of funding. Each insured credit union is required to deposit and maintain
       in the NCUSIF 1.00 percent of its insured shares. The NCUA Board may also assess premiums to all
       insured credit unions, as provided by the FCU Act.

                                                         14
In addition, the NCUSIF has borrowing authority, shared with the Temporary Corporate Credit Union
Stabilization Fund (TCCUSF), from the U.S. Treasury and the ability to borrow from the NCUA’s
Central Liquidity Facility (CLF).

Recent Legislation
In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382 (2011),
amended the FCU Act by clarifying NCUA’s authority to make TCCUSF expenditures without
borrowing from the U.S. Treasury.

The National Credit Union Authority Clarification Act amended the FCU Act to permit the NCUA
Board to assess a special premium with respect to each insured credit union in an aggregate amount that
is reasonably calculated to make any pending or future TCCUSF expenditures, in addition to existing
authority to make assessments to repay U.S. Treasury advances. The National Credit Union Authority
Clarification Act also stated that “the Board take into consideration any potential impact on credit union
earnings that such an assessment may have” and requires the premium be paid not later than 60 days
after the date of the assessment. The National Credit Union Authority Clarification Act also amended
the definitions of ‘‘equity ratio’’ and ‘‘net worth,’’ as further described in Note 12.

Basis of Presentation
The NCUSIF’s financial statements have been prepared from its accounting records in accordance with
the FASAB’s SFFAS. The American Institute of Certified Public Accountants recognizes FASAB as
the official accounting standards-setting body of the Federal Government. The format of the financial
statements and notes is in accordance with the form and content guidance provided in Office of
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, revised August 3,
2012.

Consistent with SFFAS No. 34, The Hierarchy of Generally Accepted Accounting Principles, Including
the Application of Standards Issued by the Financial Accounting Standards Board, NCUA considers
and where appropriate, applies Financial Accounting Standards Board (FASB) guidance for those
instances where no applicable FASAB guidance is available. Any such significant instances are
identified herein.

Basis of Accounting
In its accounting structure, the NCUSIF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when earned and
expenses are recognized when incurred, without regard to the actual collection or payment of cash.

Federal budgetary accounting recognizes the obligation, borrowing authorities, and other fund resources
upon the establishment of a properly documented legal liability, which may be different from the
recording of an accrual-based transaction. The recognition of budgetary accounting transactions is
essential for compliance with legal controls over the use of federal funds and compliance with
budgetary laws.

NCUA, including the NCUSIF, is exempt from requirements under the Federal Credit Reform Act of
1990 (2 U.S.C. §661e(a)(1)).

Use of Estimates
The preparation of financial statements in conformity with generally accepted accounting principles
(GAAP) for the Federal Government requires management to make estimates and assumptions that
affect the following:
      reported amounts of assets and liabilities;


                                                  15
     disclosure of contingent assets and liabilities at the date of the financial statements; and
     the amounts of revenues and expenses reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and assumptions
include (i) reserves for probable losses and contingencies related to Insurance and Guarantee Program
Liabilities; (ii) the amount and timing of recoveries, if any, related to any claims paid and settlement of
the guarantee liabilities; (iii) allowance amounts established for loan loss related to permanent cash
assistance provided to insured credit unions; and (iv) allowance amounts for losses on the receivables
from AMEs. Since 2009, the economic environment has increased the degree of uncertainty inherent in
those estimates and assumptions.

Fund Balance with Treasury
Fund Balance with Treasury (FBWT) is the aggregate amount of the NCUSIF’s accounts with the
Federal Government’s central accounts, from which the NCUSIF is authorized to make expenditures
and pay liabilities. The entire FBWT is a revolving fund type.

Investments
Investment securities primarily consist of marketable U.S. Treasury securities of varying maturities
(debt securities). The NCUSIF also holds non-marketable U.S. Treasury overnight securities purchased
and reported at par value, which are classified as held to maturity. All marketable securities are carried
as available-for-sale, in accordance with FASB Accounting Standards Codification (ASC) 320,
Investments – Debt and Equity Securities.

Interest earned and unrealized holding gains and losses on U.S. Treasury securities are excluded from
net costs and reported as components of non-exchange revenue. Realized gains and losses from the sale
of available-for-sale securities are determined on a specific identification basis.

The NCUSIF reviews all U.S. Treasury securities that are in an unrealized loss position for other-than-
temporary impairment (OTTI). The NCUSIF evaluates its U.S. Treasury securities on a monthly basis.
An investment security is deemed impaired if the fair value of the investment is less than its amortized
cost. Amortized cost includes adjustments (if any) made to the cost basis of an investment for
accretion, amortization, and previous OTTI. To determine whether impairment is OTTI, the NCUSIF
takes into consideration whether it has the intent to sell the security. The NCUSIF also considers
available evidence to assess whether it is more likely than not that it will be required to sell the debt
security before the recovery of its amortized cost basis. If the NCUA intends to sell, or more likely
than not will be required to sell the security before recovery of its amortized cost basis, OTTI shall be
considered to have occurred.

Premiums and discounts are amortized or accreted over the life of the related available-for-sale security
as an adjustment to yield using the effective interest method.

Accounts Receivable
Accounts receivable represent the NCUSIF’s claims for payment from other entities. Gross
receivables are reduced to net realizable value by an allowance for doubtful accounts as further
discussed below. The NCUSIF’s accounts receivable has two components: Intragovernmental and
Public. Intragovernmental accounts receivable represent receivables between the NCUSIF and another
reporting entity within the Federal Government. Public accounts receivable represent accounts
receivable between the NCUSIF and a non-federal entity.




                                                    16
Capitalization Deposits from Insured Credit Unions
Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit amount equal
to 1.00 percent of its insured shares. Receivables and associated non-exchange revenue are recognized
upon invoicing.

Premium Assessments from Insured Credit Unions
The NCUA Board has the statutory authority according to the FCU Act Section 202, Administration of
the Insurance Fund, to assess insured credit unions for a premium charge. The NCUA Board may
assess each insured credit union a premium charge for insurance in an amount stated as a percentage of
insured shares outstanding as of the most recently ended reporting period if the NCUSIF’s equity ratio,
as defined, is less than 1.30 percent. When the NCUA Board projects that the equity ratio will, within
six months, fall below 1.20 percent, the NCUA Board shall establish and implement a restoration plan
within 90 days, which meets the statutory requirements and any further conditions that the NCUA
Board determines appropriate. In order to meet statutory requirements, the plan must provide that the
equity ratio will meet or exceed the minimum amount specified (1.20 percent) before the end of the
8-year period beginning upon the implementation of the plan (or such longer period as the NCUA
Board may determine to be necessary due to extraordinary circumstances).

Premium receivable refers to premium charge amounts that have been billed to insured credit unions,
but have not been received as of the reporting date. As the premium assessments are collected, the
portion billed on behalf of the TCCUSF is recorded as a payable to the TCCUSF.

Allowance for Doubtful Accounts
An allowance for doubtful accounts is the NCUSIF’s best estimate of the amount of losses in an
existing receivable. Based on an assessment of collectability, the NCUSIF calculates an allowance on
an individual account basis for public accounts receivable. An account may be impaired or written off
if it is probable that the NCUSIF will not collect all principal and interest contractually due. No
allowance is calculated for intragovernmental accounts receivable, as these are deemed to be fully
collectible.

Accrued Interest Receivable
The NCUSIF recognizes accrued interest receivable for amounts of interest contractually earned but not
yet received.

Notes Receivable
Notes receivable represent loans to insured credit unions as authorized by the NCUA Board, including
assistance under Section 208 of the FCU Act. Any related allowance for loss represents the difference
between the funds disbursed and the expected repayment from the insured credit unions.

Other - Receivables from Asset Management Estates
Receivables from AMEs include claims to recover payments made by the NCUSIF to satisfy
obligations to insured shareholders and to recoup administrative expenses paid on behalf of AMEs. A
related allowance for loss represents the difference between the funds disbursed and obligations
incurred and the expected repayment, when recognized, from the AMEs pursuant to the liquidation
payment priorities set forth in 12 C.F.R.) §709.5(b). Assets held by the AMEs are the main source of
repayment of the NCUSIF’s receivables from the AMEs. The recoveries from these AME assets are
paid to the NCUSIF as AME assets are monetized and to the extent a receivable is due for share payout
obligations and administrative expenses.

The allowance for losses on receivables from AMEs are based on asset recovery rates, and come from
several sources including:
     actual or pending AME asset disposition data;

                                                 17
     asset valuation data based upon the performance, quality, and type of the assets in the portfolio;
     estimated liquidation costs based on information from similar recently failed credit unions; and
     estimated AME specific administrative expenses based upon complexity and expected duration of
      the AME.

Asset recovery rates are evaluated during the year, but remain subject to uncertainties because of
potential changes in economic and market conditions.

Distribution Payable

In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, the NCUSIF
records a non-exchange liability, per Section 202(c)(3) of the FCU Act, Distributions from Fund
Required, for unpaid amounts due as of the reporting date, as discussed herein.

Insurance and Guarantee Program Liabilities

In accordance with SFFAS No. 5, all federal insurance and guarantee programs, except social insurance
and loan guarantee programs, should recognize a liability for:
     unpaid claims incurred, resulting from insured events that have occurred as of the reporting date;
     a contingent liability when an existing condition, situation, or set of circumstances involving
      uncertainty as to possible loss exists, and the uncertainty will ultimately be resolved when one or
      more probable future events occur or fail to occur; and
     a future outflow or other sacrifice of resources that is probable.

The NCUSIF records a contingent liability for probable losses relating to insured credit unions.
Through NCUA’s supervision process, NCUA applies a supervisory rating system to assess each credit
union’s relative health in the adequacy of Capital, the quality of Assets, the capability of Management,
the quality and level of Earnings, and the adequacy of Liquidity (CAMEL), applying a rating ranging
from “1” (strongest) to “5” (weakest). The contingent liability is derived by applying expected failures
based on CAMEL ratings and historical loss rates. In addition, credit union specific analysis is
performed on those credit unions where failure is imminent or where additional information is available
that may affect the estimate of losses.

Liabilities for loss contingencies also arise from claims, assessments, litigation, fines, penalties, and
other sources. These loss contingencies are recorded when it is probable that a liability has been
incurred and the amount of the assessment and/or remediation can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

Net Position and Contributed Capital
Each insured credit union pays and maintains with the NCUSIF a capitalization deposit in the amount
equal to 1.00 percent of its insured shares. The NCUSIF reports the capitalization deposits from
member credit unions as contributed capital. This amount is included in the NCUSIF’s Balance Sheets
and Statements of Changes in Net Position.

Revenue Recognition
Exchange Revenue
Exchange revenues arise and are recognized when a Federal Government entity provides goods and
services to the public or to another Federal Government entity for a price. Exchange revenue primarily
consists of premium assessments, the purpose of which is to recover the losses of the credit union
system.




                                                  18
  Non-Exchange Revenue
  Non-exchange revenues are inflows of resources that the Federal Government demands or receives by
  donation. Such revenues are recognized when a specifically identifiable, legally enforceable claim to
  resources arises, to the extent that collection is probable (more likely than not) and the amount is
  reasonably estimable.

  Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit amount equal
  to 1.00 percent of its insured shares. This amount is recognized as non-exchange revenue upon receipt.
  In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts
  for Reconciling Budgetary and Financial Accounting, interest revenue on investments in U.S. Treasury
  securities is recognized as non-exchange revenue because the main source of funds for investments
  comes from capital deposits. Additionally, unrealized holding gains and losses on investments in U.S.
  Treasury securities are excluded from net costs and reported as a component of non-exchange revenue.

  Statement of Budgetary Resources

  The NCUSIF has updated the Statement of Budgetary Resources presentation in the 2012 financial
  statements in accordance with the new presentation requirements of OMB Circular No. A-136,
  Financial Reporting Requirements. All calendar year 2011 activity and balances reported on the
  Statement of Budgetary Resources have been reclassified to conform to the presentation in the current
  year.

  Tax-Exempt Status

  The NCUSIF is exempt from Federal income taxes under Section 501(c)(1) of the Internal Revenue
  Code.

  Reclassification

  Certain prior year amounts have been reclassified to conform to the current year presentation.

2. FUND BALANCE WITH TREASURY

  FBWT balances and status at December 31, 2012 and 2011, consisted of the following:

                                                             2012                      2011
        (Dollars in thousands)

        Total Fund Balance with Treasury: Revolving
        Funds                                          $             2,479      $                  423

        Status of Fund Balance with Treasury:

        Unobligated Balance - Available                $         10,541,159     $         10,453,208
        Obligated Balances Not Yet Disbursed                         87,311                    1,710
        Non-Budgetary FBWT Accounts                             (10,650,920)             (10,651,420)
        Non-FBWT Budgetary Accounts                                  24,929                  196,925
        Total                                          $             2,479      $                  423

  As a revolving fund, the FBWT is used for continuing business-like activities. The NCUSIF collects
  premiums and capitalization deposits, which in turn are invested in U.S. Treasury securities. The
  proceeds are primarily held to cover insurance losses and are also used for merger assistance,
  liquidations, and other administrative expenses, without requirement for annual appropriations. FBWT
  contains monies available for future obligations as well as monies obligated for current activities. Non-

                                                      19
  budgetary FBWT accounts, which consist of investments, reduce the status of fund balance. Non-
  FBWT Budgetary Accounts consist of budgetary receivables and nonexpenditure transfers.

  As of December 31, 2012 and 2011, there were no unreconciled differences between U.S. Treasury
  records and balances reported on the NCUSIF’s general ledger.

3. INVESTMENTS

  The FCU Act, Section 203(c), as amended, provides guidance regarding U.S. Treasury security
  investments. All investments at the NCUSIF pertain to marketable (available-for-sale) U.S. Treasury
  securities of varying maturities and non-marketable (held to maturity) U.S. Treasury daily overnight
  securities. Premiums or discounts on available-for-sale securities are amortized using the effective
  interest method.
  As of December 31, 2012 and 2011, the carrying amount, gross unrealized holding gains, gross
  unrealized holding losses, and fair value of U.S. Treasury securities were as follows:


                                                      Amortized
                                                      (Premium)           Interest         Investments, Net       Net Unrealized     Carrying/
                                     Cost             Discount           Receivable              (Par)             Gain (Loss)       Fair Value
  (Dollars in thousands)


    As of December 31, 2012:
    U.S. Treasury Securities
      Available-for-Sale        $    10,751,623   $       (189,900) $          63,154 $          10,320,000 $            371,661 $      10,933,384
      Held to Maturity                 359,703                n/a                      -           359,703                   n/a          359,703
    Total Public Investments    $    11,111,326 $         (189,900) $          63,154 $          10,679,703 $            371,661 $      11,293,087


    As of December 31, 2011:
    U.S. Treasury Securities
      Available-for-Sale        $    10,560,623 $         (177,145) $          81,707 $          10,120,000 $            450,200 $      10,833,678
      Held to Maturity                 558,898                n/a                      -           558,898                   n/a          558,898
      Total                     $    11,119,521 $         (177,145) $          81,707 $          10,678,898 $            450,200 $      11,392,576




  Maturities of U.S. Treasury securities as of December 31, 2012 and 2011 were as follows:

                                                                               2012                                     2011
              (Dollars in thousands)                                         Fair value                               Fair value
              Held to Maturity (Overnights)                          $               359,703                  $               558,898
              Available-for-sale:
                Due prior to one year                                                  1,622,672                              1,627,172
                Due after one year through five years                                  6,835,744                              7,785,740
                Due after five years through ten years                                 2,474,968                              1,420,766
                                                                     $                11,293,087              $              11,392,576

  There were no realized gains or losses for the years ended December 31, 2012 and 2011.

  The following table includes gross unrealized losses on investment securities, for which OTTI has not
  been recognized, in addition to the fair values of those securities, aggregated by investment
  classification and length of time the investments have been in a loss position, at December 31, 2012 and
  2011.



                                                                    20
                                                  Duration of Unrealized Losses
                                                       Less than 12 months
                                                 Unrealized
                  (Dollars in thousands)          Losses               Fair Value

                  As of December 31, 2012:
                  Available-for-sale:
                  U.S. Treasury securities   $           (6,681) $           1,390,141

                  As of December 31, 2011:
                  Available-for-sale:
                  U.S. Treasury securities   $                 (72) $          111,688


4. ACCOUNTS RECEIVABLE

  Intragovernmental – Accounts Receivable
  Note Due from the NCUA Operating Fund
  In 1992, the NCUSIF lent approximately $42 million to the NCUA Operating Fund, pursuant to a
  30-year note secured by the NCUA premises in Alexandria, Virginia. Interest income recognized was
  approximately $290 thousand and $344 thousand for the years ended December 31, 2012 and 2011,
  respectively. The note receivable balance as of December 31, 2012 and 2011 was approximately
  $14.4 million and $15.8 million, respectively.

  The variable rate on the note is equal to the NCUSIF’s prior-month yield on investments. The average
  interest rate for the years ended December 31, 2012 and 2011 was 1.93 percent and 2.10 percent
  respectively. The interest rate as of December 31, 2012 and 2011 was 1.83 percent and 2.01 percent,
  respectively.

  As of December 31, 2012, the above note requires principal repayments as follows:
                                                                Secured
                            Years Ending                       Term Note
                            December 31                   (Dollars in thousands)

                            2013                           $              1,341
                            2014                                          1,341
                            2015                                          1,341
                            2016                                          1,341
                            2017                                          1,341
                            Thereafter                                    7,710

                            Total                          $            14,415

  Public – Accounts Receivable
  Capitalization Deposits from Insured Credit Unions
  As of December 31, 2012 and 2011, the capitalization deposits due from insured credit unions were $38
  thousand and $30 thousand, respectively.

  Premium Assessments from Insured Credit Unions
  As of December 31, 2012 and 2011, assessments due from insured credit unions were $0 and $73
  thousand, respectively.

                                                  21
  As none of these amounts were deemed uncollectible, the allowance for doubtful accounts on public
  accounts receivable as of December 31, 2012 and 2011 was zero.

5. NOTES RECEIVABLE

  As of December 31, 2012 and 2011, the NCUSIF had two outstanding capital notes due from insured
  credit unions. The capital notes receivable totaled $80.0 million and the related allowance for loss was
  $10.0 million, for a net capital note receivable of $70.0 million as of December 31, 2012 and 2011.
  These capital notes are subordinated to all shareholders, creditors, and any other such financial
  obligations. Accrued interest on the notes is due on a semi-annual basis. Interest on these notes have
  fixed and variable terms.

  As of December 31, 2012, the NCUSIF had an outstanding collateralized senior note due from an
  insured credit union for $179.3 million. Accrued interest on the notes is due on a monthly basis.
  Interest on this note has variable terms.

  As of December 31, 2012 and 2011, the accrued interest receivable for the notes totaled $202 thousand
  and $150 thousand, respectively.

6. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2012 and 2011, the receivable from AMEs was $1.1 billion and $932.0 million,
  and the related allowance for loss was $880.1 million and $817.3 million, for a net receivable from
  AMEs of $252.0 million and $114.7 million, respectively.

                                                    For the Year Ended       For the Year Ended
                                                    December 31, 2012        December 31, 2011
           (Dollars in thousands)
           Gross Receivable from AME               $          1,132,137      $           932,061


           Allowance for Loss, beginning balance                817,320                  777,570
             AME Receivable Bad Debt
               Expense (Reduction)                               (2,910)                   (6,730)
             Increase in Allowance                              107,578                    80,955
             Write-off of Cancelled Charters                    (41,880)                  (34,475)
             Allowance for Loss, ending balance                 880,108                  817,320
           Receivable from AME, Net                $            252,029      $           114,741



7. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  NCUA identifies insured credit unions experiencing financial difficulty through NCUA’s supervisory
  and examination process. On both a general and specific case basis, management determines the
  estimated losses from these credit unions. NCUA also evaluates overall economic trends and monitors
  potential system-wide risk factors, such as increasing levels of consumer debt, bankruptcies, and
  delinquencies. NCUA applies the CAMEL rating system to assess an insured credit union’s financial
  condition and operations. The CAMEL rating system is a tool to measure risk and allocate resources
  for supervisory purposes. NCUA periodically reviews the CAMEL rating system to respond to
  continuing economic and regulatory changes in the credit union industry. For general reserve
  requirements, risk profile categories are established based on the CAMEL ratings of problem credit
  unions, and probable failure and loss rates are applied based on historical data. The anticipated losses

                                                    22
are net of estimated recoveries from the disposition of the assets of failed credit unions. The total
reserves for both identified and anticipated losses resulting from insured credit union failures were
$412.5 million and $606.6 million as of December 31, 2012 and 2011, respectively.

In exercising its supervisory function, the NCUSIF will occasionally extend guarantees of assets
(primarily loans) to third-party purchasers or existing credit unions in order to facilitate mergers. The
NCUSIF would be obligated upon borrower nonperformance. There were no guarantees outstanding
during 2012 or as of December 31, 2012. There were no guarantees outstanding during 2011 or as of
December 31, 2011.

In addition, the NCUSIF may grant a guaranteed line-of-credit to a third-party lender, such as a
corporate credit union or bank, if a particular credit union were to have a current or immediate liquidity
concern and the third-party lender refuses to extend credit without a guarantee. The NCUSIF would
thereby be obligated if the insured credit union failed to perform. Total line-of-credit guarantees of
credit unions as of December 31, 2012 and 2011 were approximately $0 and $115.0 million,
respectively. The insured credit unions borrowed $0 and $15.4 million, from the third-party lender,
under these line-of-credit guarantees as of December 31, 2012 and 2011, respectively. At December
31, 2012 and 2011, the NCUSIF reserved $0 and $2.1 million, respectively, for these guaranteed lines-
of-credit. Guarantees of $60.0 million expired on December 31, 2012.

On rare occasions, the NCUSIF may provide indemnifications as part of a merger assistance or
purchase and assumption agreement to acquiring credit unions. Such indemnifications make the
NCUSIF contingently liable based on the outcome of any legal actions. There were no such
indemnification contingencies as of December 31, 2012 and 2011, respectively.

The activity in the Insurance and Guarantee Program Liabilities from insured credit unions and AMEs
was as follows:

                                                  For the Year Ended        For the Year Ended
                                                  December 31, 2012         December 31, 2011
        (Dollars in thousands)

        Beginning balance                         $           606,617      $          1,225,281
        Reserve Expense (Reduction)                           (74,874)                 (525,678)
        Insurance losses claims paid                         (349,080)                 (105,099)
        Net Estimated Recovery/Claim on AMEs                  229,789                    12,113
        Ending balance                            $           412,452      $            606,617

The Insurance and Guarantee Program Liabilities at December 31, 2012 and December 31, 2011 were
comprised of the following:
     Specific reserves were $95.2 million and $16.4 million, respectively. Specific reserves are
      identified for those credit unions where failure is imminent or where additional information is
      available that may affect the estimate of losses.
     General reserves were $317.3 million and $590.2 million, respectively.

In addition to these recorded contingent liabilities, additional adverse performance in the financial
services industry could result in additional losses to the NCUSIF. The ultimate losses for insured credit
unions will largely depend upon future economic and market conditions and, accordingly, could differ
significantly from these estimates.




                                                      23
8. OTHER LIABILITIES – DISTRIBUTION PAYABLE

  Per Section 202(c) (3) of the FCU Act, Distributions from Fund Required, the NCUA Board shall effect
  a pro rata distribution to insured credit unions after each calendar year, if:
         (i)      any loans to the NCUSIF from the Federal Government, and any interest on those loans,
                  have been repaid;
         (ii)     the NCUSIF’s equity ratio exceeds the normal operating level of 1.30 percent; and
         (iii)    the NCUSIF’s available assets ratio exceeds 1.00 percent.

  The amount of share distribution should equal the maximum possible amount that does not reduce the
  NCUSIF’s equity ratio below the normal operating level of 1.30 percent, and does not reduce the
  NCUSIF’s available assets ratio below 1.00 percent.

  At the end of any calendar year in which the TCCUSF or the NCUSIF has an outstanding advance from
  the U.S. Treasury, the NCUSIF is prohibited from making the distribution to insured credit unions
  described under Section 202(c)(3) of the FCU Act. As of December 31, 2012 and 2011, the TCCUSF
  had an outstanding advance from the U.S. Treasury. Where the TCCUSF has an outstanding advance
  from the U.S. Treasury, Section 217(e) of the FCU Act requires the NCUSIF to make a distribution to
  the TCCUSF of the maximum amount possible that does not reduce the NCUSIF’s equity ratio below
  the normal operating level of 1.30 percent and does not reduce the NCUSIF’s available assets ratio
  below 1.00 percent.

  As of December 31, 2012 and 2011, the NCUSIF recorded an estimate for the distribution payable due
  to the TCCUSF totaling approximately $88.1 million and $278.6 million, respectively; thereby bringing
  the equity ratio down to its normal operating level of 1.30 percent. As of December 31, 2012 and 2011,
  the NCUSIF’s available assets ratio was 1.29 and 1.32 percent, respectively. The equity ratio and
  available assets ratio calculations are discussed in Note 12. The $88.1 million amount payable as of
  December 31, 2012 is expected to be paid in the first half of 2013, upon receipt of certification of
  certain insured share information from credit unions.

9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between intragovernmental and public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from transactions
  with other federal entities. Public revenue and expenses arise from transactions with domestic and
  foreign persons and organizations outside of the Federal Government.

        Intragovernmental Costs and Exchange    For the Year Ended     For the Year Ended
        Revenue                                 December 31, 2012      December 31, 2011


        (Dollars in thousands)

        Intragovernmental Costs                $          137,528      $          129,985
        Public Costs/(Cost Reduction)                     (74,075)               (530,035)
            Total                                           63,453               (400,050)
        Intragovernmental Exchange
          Revenue                                             (290)                  (344)
          Public Exchange Revenue                           (8,478)                  (693)
            Total                                           (8,768)                (1,037)
        Net Cost/(Income)                      $            54,685     $         (401,087)

  Certain administrative services are provided to the NCUSIF by the NCUA Operating Fund. The
  NCUSIF is charged by the NCUA Operating Fund for these services based upon an annual allocation

                                                   24
   factor approved by the NCUA Board and derived from a study of actual usage. The allocation factor
   was 59.3 percent and 58.9 percent to the NCUSIF for 2012 and 2011, respectively. The cost of the
   services allocated to the NCUSIF, which totaled approximately $137.5 million and $130.0 million for
   the years ended December 31, 2012 and 2011, respectively, is reflected as an expense in the Statements
   of Net Cost. These transactions are settled monthly. As of December 31, 2012 and 2011, amounts due
   to the NCUA Operating Fund for allocated administrative expenses were $2.0 million and $1.2 million,
   respectively. The following table provides a breakdown of the administrative services provided to the
   NCUSIF by the NCUA Operating Fund.

           Administrative Services Reimbursed to      For the Year Ended       For the Year Ended
           the NCUA Operating Fund                    December 31, 2012        December 31, 2011
           (Dollars in thousands)

           Employee Salaries                         $             75,177      $            73,271
           Employee Benefits                                       26,178                   20,996
           Employee Travel                                         15,446                   15,313
           Contracted Services                                     10,408                    9,107
           Administrative Costs                                     7,472                    8,518
           Rent, Communications, and Utilities                      2,847                    2,780

           Total Services Provided by the NCUA
            Operating Fund                           $            137,528      $           129,985

10. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

   The NCUSIF shares $6.0 billion in borrowing authority from the U.S. Treasury with the TCCUSF. As
   of December 31, 2012 and 2011, the TCCUSF had $5.1 billion and $3.5 billion in borrowing
   outstanding from the U.S. Treasury, respectively. As a result, as of December 31, 2012 and 2011, the
   NCUSIF had $0.9 billion and $2.5 billion, respectively, in available borrowing authority shared with
   the TCCUSF.

   Under the FCU Act, the NCUSIF also has the ability to borrow from the CLF. The NCUSIF is
   authorized to borrow from the CLF up to the amount of the CLF’s unused borrowing authority. As of
   December 31, 2012 and 2011, the CLF had available borrowing capacity under its note purchase
   agreement for $2.3 billion and $10.0 billion. CLF’s current note purchase agreement expires March 31,
   2013.

   At December 31, 2012 and 2011, the NCUSIF had $3.2 billion and $12.5 billion, respectively, in total
   available borrowing authority.

11. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES

   The Statements of Budgetary Resources discloses total budgetary resources available to the NCUSIF,
   and the status of resources as of December 31, 2012 and 2011. Activity impacting budget totals of the
   overall Federal Government budget is recorded in the NCUSIF’s Statements of Budgetary Resources
   budgetary accounts. As of December 31, 2012 and 2011, the NCUSIF’s resources in budgetary
   accounts were $11.3 billion and $10.9 billion and undelivered orders were $694 thousand and $362
   thousand, respectively. All liabilities are covered by budgetary resources, excluding the Insurance and
   Guarantee Program Liabilities, because they are contingent liabilities and do not require budgetary
   resources until the liabilities are no longer contingent. All obligations incurred by the NCUSIF are
   reimbursable. The NCUSIF is exempt from OMB apportionment control.


                                                    25
   Budgetary resources listed on the NCUSIF’s statements and the budgetary resources found in the
   budget of the Federal Government differ because the NCUSIF’s statements are prepared as of
   December 31, calendar year, rather than as of September 30, the Federal Government’s fiscal year end.

12. CONTRIBUTED CAPITAL

   The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the NCUSIF’s
   capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
   with the NCUSIF a deposit in an amount equaling 1.00 percent of the credit union’s insured shares.
   Under Section 1782(c) of the FCU Act, the amount of each insured credit union’s deposit is adjusted as
   follows, in accordance with procedures determined by the NCUA Board, to reflect changes in the credit
   union’s insured shares: (i) annually, in the case of an insured credit union with total assets of not more
   than $50.0 million; and (ii) semi-annually, in the case of an insured credit union with total assets of
   $50.0 million or more. The annual and semi-annual adjustments are based on member share deposits
   outstanding as of December 31 of the preceding year and June 30 of the current year, respectively. The
   1.00 percent contribution is returned to the insured credit union in the event that its insurance coverage
   is terminated, or is obtained from another source, or the operations of the NCUSIF are transferred from
   the NCUA Board. As of December 31, 2012 and 2011, contributed capital owed to the NCUSIF totaled
   $38 thousand and $30 thousand, respectively. As of December 31, 2012 and 2011, contributed capital
   due to insured credit unions was zero.

   Beginning in 2000, the CUMAA mandated that distributions to insured credit unions are determined
   from specific ratios, which are based upon year-end reports of insured shares. Accordingly,
   distributions associated with insured shares at year-end are declared and paid in the subsequent year.
   This was updated with the passage of the Helping Families Act of 2009, which states that at the end of
   any calendar year in which the TCCUSF has an outstanding advance from the U.S. Treasury, the
   NCUSIF is prohibited from making the distribution to insured credit unions as described above. In lieu
   of the distribution, the NCUSIF shall make a distribution to the TCCUSF for the maximum amount
   possible that does not reduce the NCUSIF’s equity ratio below the normal operating level of 1.30
   percent and does not reduce the current available assets ratio below 1.00 percent.

   Pursuant to the FCU Act, the NCUSIF calculated and initiated distributions to the TCCUSF in the
   estimated amount of $88.1 million and $278.6 million, which is recognized as a payable as of
   December 31, 2012 and 2011. Thus, the NCUSIF’s calculated equity ratio after distribution as of
   December 31, 2012 and 2011 was 1.30 percent, based on estimated total insured shares as of December
   31, 2012 and 2011 of $839.4 billion and $795.3 billion, respectively. Total contributed capital as of
   December 31, 2012 and 2011 was $8.3 billion and $7.8 billion, respectively.

   The NCUSIF equity ratio is calculated as the ratio of contributed capital plus cumulative results of
   operations excluding net cumulative unrealized gains and losses on investments, to the aggregate
   amount of the insured shares in all insured credit unions.

   The calculated available assets ratio as of December 31, 2012 and 2011 was 1.29 and 1.32 percent,
   based on total estimated insured shares as of December 31, 2012 and 2011 of $839.4 billion and $795.3
   billion, respectively. The NCUSIF available assets ratio, as defined by the FCU Act, is calculated as
   the ratio of (A) the amount determined by subtracting (i) direct liabilities of the NCUSIF (including the
   distribution payable to the TCCUSF) and contingent liabilities for which no provision for losses has
   been made, from (ii) the sum of cash and the market value of unencumbered investments authorized
   under Section 203(c), to (B) the aggregate amount of the insured shares in all insured credit unions.

13. FIDUCIARY ACTIVITIES

   Fiduciary activities are the collection or receipt, management, protection, accounting, investment, and
   disposition by an AME of cash and other assets, in which non-federal individuals or entities have an

                                                     26
  ownership interest. Fiduciary assets are not assets of the Federal Government. Fiduciary activities are
  not recognized on the financial statements, but are reported on schedules in the notes to the financial
  statements in accordance with SFFAS No. 31, Accounting for Fiduciary Activities.

  The NCUA Board, as liquidating agent of the AMEs, disburses obligations owed by and collects money
  due to the liquidating credit unions through AMAC.

                                                                  For the Year Ended    For the Year Ended
         Schedule of Fiduciary Activity                           December 31, 2012     December 31, 2011
         (Dollars in thousands)
         Fiduciary Net Liabilities, beginning of year             $        (823,594)    $        (781,264)
         Net Realized Losses upon Liquidation                              (196,037)              (59,986)
         Revenues
           Interest on Loans                                                 10,775                 7,535
           Other Fiduciary Revenues                                           2,154                 1,691
         Expenses
           Professional & Outside Services Expenses                          (8,667)               (7,501)
           Compensation and Benefits                                         (1,773)               (1,729)
           Other Expenses                                                    (1,848)                  336
         Net Change in Recovery Value of Assets and Liabilities
           Net Gain/(Loss) on Loans                                          (1,233)              (25,144)
           Net Gain/(Loss) on Real Estate Owned                                 210                   712
           Other, Net Gain/(Loss)                                             3,313                 7,281
         Decrease/(Increase) in Fiduciary Net Liabilities                  (193,106)              (76,805)
         Write off of Fiduciary Liabilities for
         Cancelled Charters                                                  41,880                34,475
         Fiduciary Net Liabilities, end of year                   $        (974,820)    $        (823,594)


Revenues consist of cash collected during the liquidation of assets held within the AME. Gains and
losses include the revaluation of assets, as well as the disposition of assets and adjustments to liabilities,
which contribute to the change in fiduciary net assets/liabilities.

                                                                       As of                 As of
         Schedule of Fiduciary Net Assets/Liabilities             December 31, 2012     December 31, 2011
         (Dollars in thousands)

         Fiduciary Assets
           Loans                                                  $         186,688     $          96,755
           Real Estate Owned                                                 32,443                31,687
           Other Fiduciary Assets                                            25,209                 7,954
         Total Fiduciary Assets                                             244,340               136,396
         Fiduciary Liabilities
           Insured Shares                                                     63,861                8,595
           Secured Claims                                                          -                1,400
           Accrued Liquidation Expenses                                       17,571                7,290
           Unsecured Claims                                                    4,692                7,793
           Uninsured Shares                                                      899                2,851
           Due to NCUSIF                                                   1,132,137              932,061
         Total Fiduciary Liabilities                                       1,219,160              959,990
         Total Fiduciary Net Assets/(Liabilities)                 $         (974,820)   $         (823,594)




                                                            27
14. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

  The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net
  obligations and the proprietary net cost of operations. The Reconciliation of Net Cost of Operations to
  Budget consisted of the following:

                                                                              As of                As of
  Reconciliation of Net Cost of Operations to Budget                     December 31, 2012    December 31, 2011
  (Dollars in thousands)

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
  Budgetary Obligations Incurred                                         $         746,148    $         413,154
  Less: Spending Authority from Offsetting Collections and
   Change in Receivables from Federal Sources                                     (922,189)            (714,809)
  Net Obligations                                                                 (176,041)            (301,655)

  Other Resources:
  Net Unrealized (Gain)/Loss                                                         78,539            (263,813)
  Total Resources Used to Finance Activities                                       (97,502)            (565,468)

  Resources Used to Fund Items Not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods and
   Services Not Yet Received                                                         (331)                   432
  Resources that Fund Expenses Recognized in Prior Periods                          88,948               (2,136)
  Costs Capitalized on the Balance Sheet                                           192,861              285,061
  Other Resources or Adjustments to Net Obligated Resources
   that do not Affect Net Cost of Operations                                       (51,290)             413,986
  Total Resources Used to Fund Items Not Part of the
   Net Cost of Operations                                                          230,188              697,343

  Resources Used to Finance the Net Cost of Operations                             132,686              131,875

  Components of Net Cost of Operations that will not
  Require or Generate Resources in the Current Period
   Provision for Insurance Losses
     Reserve Expense (Reduction)                                                   (74,874)            (525,678)
     AME Receivable Bad Debt Expense (Reduction)                                    (2,910)              (6,730)
   Increase in Exchange Revenue                                                       (235)                (574)
  Components not Requiring or Generating Resources
  Depreciation Expense                                                                  18                   20
  Total Components of Net Cost of Operations That Do Not
   Require or Generate Resources During the Reporting Period                       (78,001)            (532,962)

  Net Cost/ (Income) from Operations                                     $          54,685    $        (401,087)




15. SUBSEQUENT EVENTS

    Subsequent events have been evaluated from the Balance Sheet date through February 15, 2013, which
    is the date the financial statements were available to be issued. Management determined that there were
    no items to disclose as of December 31, 2012.




                                                             28
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)

Risk Assumed Information

Insurance and Guarantee Program Liabilities

As of December 31, 2012 and 2011, the aggregate outstanding insured shares of the insured credit
unions were $839.4 billion and $795.3 billion, respectively. This amount represents the maximum
potential future guarantee payments that the NCUSIF could be required to make under the share
insurance program, without consideration of any possible recoveries. Additionally, pursuant to Section
217(b)(2)(A) of the FCU Act, to the extent that the required funding for the guarantee obligations
exceeds the funds available in the TCCUSF, the NCUSIF will provide the necessary funds. These
amounts bear no relationship to the NCUSIF's anticipated losses.

As discussed previously herein, NCUA identifies credit unions at risk of failure through the supervisory
and examination process, and estimates losses based upon economic trends and credit unions’ financial
condition and operations. NCUA also evaluates overall economic trends and monitors potential credit
union system-wide risk factors, such as increasing levels of consumer debt, bankruptcies, and
delinquencies. NCUA applies the CAMEL rating system to assess a credit union’s financial condition
and operations. The CAMEL rating system is a tool to measure risk and allocate resources for
supervisory purposes. NCUA periodically reviews the CAMEL rating system to respond to continuing
economic and regulatory changes in the credit union industry. The aggregate amount of reserves
recognized for credit unions at risk of failure was $412.5 million and $606.6 million as of
December 31, 2012 and 2011, respectively. At December 31, 2012 and 2011, the general reserves were
$317.3 million and $590.2 million, respectively. At December 31, 2012 and 2011, the specific reserves
resulting from insured credit unions' failures were $95.2 million and $16.4 million, respectively.

While certain risk factors remain elevated, as compared to pre-2009, the NCUSIF's contingent liability
decreased by $194.1 million from 2011 to 2012, and decreased by $618.7 million from 2010 to 2011.
The trend is partly attributable to certain improving metrics, specifically a declining trend in the
resolution of certain troubled credit unions, a reduction in assets in credit unions with CAMEL 4 and 5
ratings, and lower delinquencies and charge-offs.

Fees and Premiums

During 2012 and 2011, the NCUA Board did not assess premiums to insured credit unions from the
NCUSIF.

Sensitivity, Risks and Uncertainties of the Assumptions

As discussed previously herein, the NCUA estimates the anticipated losses resulting from insured credit
union failures using an internal model that applies failure and loss rates based on historical data to
troubled credit unions identified through the CAMEL rating system under various scenarios. Historical
trends are not indicative of future performance. Actual losses could differ materially from the
anticipated losses recorded by the NCUSIF as of December 31, 2012.

The development of assumptions for key input variables of our estimation model is a highly subjective
process that involves significant judgment and will change over time. Future values are difficult to
estimate, especially over longer timeframes. Key assumptions in the modeling include failure and loss
rates. The failure rate is developed based on actual failures and historical migration trends in the
CAMEL ratings, and incorporates the NCUA's expectations and assumptions about macroeconomic
trends such as unemployment rate and level of consumer debt, as well as credit union system-wide
factors such as delinquencies, bankruptcies and charge-offs. The loss rate is developed based on
historical loss experience from actual failures, and incorporates the NCUA's expectations and
                                                 29
assumptions about anticipated recoveries. The assumptions developed for the estimation model are
periodically evaluated by the NCUA to determine the reasonableness of those assumptions over time.

The NCUSIF general reserve is sensitive to assumptions made about the failure and loss rates under
various scenarios in the Monte Carlo simulation. Changing our assumptions for observed variations in
failure rates and loss rates results in a wide range of losses, as compared to $317.3 million in
anticipated losses recognized on the NCUSIF's balance sheet at December 31, 2012. Consistent with
accounting standards, the assumptions used to estimate the anticipated losses will require continued
calibration and refinement as circumstances change.




                                                30
